<html>
<title> - NOMINATIONS TO THE DEPARTMENT OF TRANSPORTATION, THE NATIONAL AERONAUTICS AND SPACE ADMINISTRATION, AND THE DEPARTMENT OF COMMERCE</title>
<body><pre>[Senate Hearing 110-1169]
[From the U.S. Government Publishing Office]



                                                       S. Hrg. 110-1169
 
                    NOMINATIONS TO THE DEPARTMENT OF

                      TRANSPORTATION, THE NATIONAL

  AERONAUTICS AND SPACE ADMINISTRATION, AND THE DEPARTMENT OF COMMERCE

=======================================================================



                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,

                      SCIENCE, AND TRANSPORTATION

                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 31, 2007

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation


       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION


                             -------------

                              JULY 31, 2007 

                              ------------ 

       Printed for the use of the Committee on Commerce, Science, and 

                               Transportation 




                  U.S. GOVERNMENT PRINTING OFFICE
75-740                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                   DANIEL K. INOUYE, Hawaii, Chairman
JOHN D. ROCKEFELLER IV, West         TED STEVENS, Alaska, Vice Chairman
    Virginia                         JOHN McCAIN, Arizona
JOHN F. KERRY, Massachusetts         TRENT LOTT, Mississippi
BYRON L. DORGAN, North Dakota        KAY BAILEY HUTCHISON, Texas
BARBARA BOXER, California            OLYMPIA J. SNOWE, Maine
BILL NELSON, Florida                 GORDON H. SMITH, Oregon
MARIA CANTWELL, Washington           JOHN ENSIGN, Nevada
FRANK R. LAUTENBERG, New Jersey      JOHN E. SUNUNU, New Hampshire
MARK PRYOR, Arkansas                 JIM DeMINT, South Carolina
THOMAS R. CARPER, Delaware           DAVID VITTER, Louisiana
CLAIRE McCASKILL, Missouri           JOHN THUNE, South Dakota
AMY KLOBUCHAR, Minnesota
   Margaret L. Cummisky, Democratic Staff Director and Chief Counsel
Lila Harper Helms, Democratic Deputy Staff Director and Policy Director
   Christine D. Kurth, Republican Staff Director and General Counsel
Kenneth R. Nahigian, Republican Deputy Staff Director and Chief Counsel



                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on July 31, 2007....................................     1
Statement of Senator Inouye......................................     1

                               Witnesses

Barrett, Vice Admiral Thomas J., USCG (Ret.), Nominee to be 
  Deputy Secretary, U.S. Department of Transportation............     5
    Prepared statement...........................................     6
    Biographical information.....................................     7
Brubaker, Paul R., Nominee to be Administrator, Research and 
  Innovative Technology Administration, U.S. Department of 
  Transportation.................................................    19
    Biographical information.....................................    20
Cohen, Hon. William S., former U.S. Senator, Maine; former 
  Secretary, U.S. Department of Defense..........................     2
    Murkowski, Hon. Lisa, U.S. Senator from Alaska...............     3
Spoehel, Ronald R., Nominee to be Chief Financial Officer, 
  National Aeronautics and Space Administration..................    27
    Prepared statement...........................................    28
    Biographical information.....................................    29
Sutton, Rear Admiral William, USN (Ret.), Nominee to be Assistant 
  Secretary for Manufacturing and Services, U.S. Department of 
  Commerce.......................................................    34
    Biographical information.....................................    36

                                Appendix

Response to written questions submitted by Hon. Trent Lott to 
  Ronald R. Spoehel..............................................    46
Response to written questions submitted by Hon. John D. 
  Rockefeller IV to Vice Admiral Thomas J. Barrett...............    47
Snowe, Hon. Olympia J., U.S. Senator from Maine, prepared 
  statement......................................................    45
Stevens, Hon. Ted, U.S. Senator from Alaska, prepared statement..    45
Warner, Hon. John, U.S. Senator from Virginia, prepared statement    46


                    NOMINATIONS TO THE DEPARTMENT OF


                      TRANSPORTATION, THE NATIONAL


  AERONAUTICS AND SPACE ADMINISTRATION, AND THE DEPARTMENT OF COMMERCE

                              ----------                              


                         TUESDAY, JULY 31, 2007

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:59 a.m. in room 
SR-253, Russell Senate Office Building, Hon. Daniel K. Inouye, 
Chairman of the Committee, presiding.

          OPENING STATEMENT OF HON. DANIEL K. INOUYE, 
                    U.S. SENATOR FROM HAWAII

    The Chairman. The nominees before us today have been called 
upon to lead in diverse areas of our Government, and I look 
forward to the opportunity to hear their views on how their 
past experiences will assist them in addressing the challenges 
posed by these positions.
    Vice Admiral Barrett, we are depending on you to offer 
steady leadership at the Department of Transportation, and make 
certain that the safety of our Nation's transportation system 
remains the top priority of the agency. At the same time, I'm 
certain you will encourage advancements that can enhance our 
national transportation system and improve the movement of 
goods and services and people across the United States.
    Funding for our Nation's aviation programs will be a 
particular challenge. The FAA has seen massive cuts to their 
facilities and equipment accounts since FY 2004. These 
practical cuts, if not corrected soon, will jeopardize our 
international leadership in aerospace, and damage our ability 
to address the capacity and congestion we are now experiencing 
in our skies. And I'm certain you'll provide direction at the 
Department of Transportation to make sure that aviation needs 
are properly funded.
    Truck and rail safety and the reauthorization of Amtrak are 
additional areas that will challenge you. Given your proven 
record of working with the Congress, and, more specifically, 
with this Committee, I think we can expect you to meet these 
and other challenges very successfully.
    In the Department of Transportation, research and 
technological advancements are keys to expanding our 
transportation system so we can meet our society's growing 
demands and continue to grow our economy. We'll be counting on 
you, Mr. Brubaker, to make certain the agency evaluates and 
develops new technologies quickly and effectively so can be 
implemented as soon as practicable.
    Admiral Sutton, it's a pleasure to welcome the former 
Commander of Naval Station Pearl Harbor. You are now called 
upon to be the voice of America's manufacturers as they face 
the challenges of globalization. The entire manufacturing 
sector generated just 12.1 percent of U.S. gross domestic 
product in 2006, compared with 17 and a half percent in 1986. 
Manufacturing employment dropped from 17.2 million in 1996 to 
just over 14 million as of last year. So, obviously you have a 
great challenge ahead of you.
    Mr. Spoehel will be called upon, among other things, to 
improve NASA's financial management system and address 
weaknesses in NASA's contracting system identified by the 
Government Accountability Office.
    On behalf of the Committee, I thank all of you for your 
willingness to serve our Nation in these very important 
positions, and I'd like to call upon you. Before you do, I have 
two very distinguished citizens of the United States who wish 
to be heard.
    First, the Honorable William S. Cohen, Member of the 
Senate, a distinguished one, at one time, and a former 
Secretary of Defense.
    Secretary Cohen?

              STATEMENT OF HON. WILLIAM S. COHEN,

         FORMER U.S. SENATOR, MAINE; FORMER SECRETARY,

                   U.S. DEPARTMENT OF DEFENSE

    Secretary Cohen. Thank you very much, Mr. Chairman.
    And let the record show--Mr. Chairman, perhaps the record 
should show your dedication to efficiency, that you actually 
started the hearing 1 minute before the appointed hour, and 
that that testifies to your commitment to efficiency and 
productivity.
    But let me thank you for allowing me to come and testify 
before you this morning. As you pointed out, I had the 
privilege of serving with you for 18 years, and we worked 
together in an indirect way when I was a member of the House of 
Representatives during the Watergate period, where I served on 
the House Judiciary Committee and you were on the Watergate 
Committee, and then, subsequent to that, some 12 years or more 
later, on the Iran-Contra Investigation. And I just want the 
record to show what extraordinary respect I have for you and 
the honor with which you have served as a member of the Senate, 
and, prior to that, as a heroic member of our Armed Forces.
    So, thank you for allowing me to come before you this 
morning. I would like to, first, acknowledge Paul Brubaker's 
wife, Carolyn, and his sons, Jackson and Gavin, who are sitting 
behind me, and also welcome Paul's mother-in-law, Ruth Ann 
Renford, to the proceeding.
    And I want you to know how much pleasure and pride I take 
in introducing Paul today, to endorse his nomination to become 
Administrator of the Department of Transportation's Research 
and Innovative Technology Administration.
    Paul began working for me and the staff of the Senate 
Governmental Affairs Committee back in 1992, on the oversight 
Committee that I was chairing and that Senator Levin was the 
Ranking Member. He began his position as an investigator, 
which--for which he was well suited, having served some 6 years 
at GAO, and, within a very short time, I had promoted him as 
Staff Director, because of his great drive and enthusiasm, a 
position which was preceded by another distinguished Member of 
this body, Senator Susan Collins.
    Paul was deeply involved in many of the investigations and 
the reform proposals that grew out of those hearings that were 
held by Senator Levin and me, and perhaps most notably was one 
of the leading forces behind the 1996 Clinger-Cohen Act, which 
reformed the Government's IT procurement processes. I'd like to 
note, for the record, that, in Maine, we call it the Cohen-
Clinger Act, but, nonetheless, the official title is Clinger-
Cohen.
    Paul--when I went to the Department of Defense, Paul joined 
me, and then served as Deputy Chief Information Officer, and 
later, he was the Deputy Assistant Secretary of Defense for 
C4I. He applied his great political, policy, and budgetary 
skills to administer department-wide IT initiatives that 
affected our soldiers, sailors, airmen, and marines around the 
world, and he brought great energy, creativity, and private-
sector experience to policies and investments in technology and 
the communications that benefited the DOD enterprise.
    After he left government, in 2001, he built two small 
businesses, from the ground up. In his current position, as CEO 
of Procentrix, Inc., he has provided his customers with 
dramatic improvements in mission performance. In 6 months, Paul 
turned Procentrix into one of the Federal Computer Week's top 
ten organizations for the year 2006. And, again, he proves his 
talent for facing very complex challenges.
    The Research and Innovative Technology Administration 
within the Department of Transportation, it performs a vital 
function in America's transportation network. We see increasing 
evidence that transportation technology is intimately tied to 
America's security and commerce, our public health and civic 
life.
    September 11, Hurricane Katrina, and the war in Iraq have 
shown us that a successful RITA Administrator must be able to 
see beyond the bits and bytes of information technology to 
grasp a larger picture, and that's one of Paul's many 
strengths.
    America's transportation technology needs will test an 
administrator's vision, his critical-thinking, and problem-
solving. And I know that Paul Brubaker is going to pass those 
tests with great vigor and grace. He has my highest confidence, 
and I hope you will confirm him for this post.
    Thank you very much, Mr. Chairman.
    The Chairman. I thank you very much, Mr. Secretary.
    And now, I have the privilege of calling upon Alaska's 
Senator, Senator Murkowski, daughter of the Governor, and 
Senator.

               STATEMENT OF HON. LISA MURKOWSKI, 
                    U.S. SENATOR FROM ALASKA

    Senator Murkowski. Good morning, Mr. Chairman. I am 
delighted to be before the Committee to introduce a friend and 
a fellow Alaskan, Vice Admiral Thomas J. Barrett, who is 
President Bush's nominee to serve as the Deputy Secretary of 
Transportation.
    I have known Admiral Barrett and his wife, Sheila, since my 
service in the Alaska State legislature, back in Juneau, when 
Admiral Barrett was serving as the Commander of the 17th Coast 
Guard District. At that time, I had an opportunity to come to 
know Admiral Barrett, his wife, his family, just as genuine 
Alaskans. Now, I must tell you, they hail from other parts of 
the country, but we have adopted them as Alaskans. We know that 
their heart--when they left the state, a part of their heart 
was left with us, and we are glad to call them Alaskans.
    I would also like to recognize not only his wife, Sheila, 
but also his family. They have four children; two sons, who 
have served honorably in Iraq. The family has contributed in so 
many different ways.
    Admiral Barrett has a very distinguished background: 
graduated from the Coast Guard Officer Candidate School, was 
commissioned in 1969, served in Vietnam, earned a law degree 
from George Washington, graduated in residence from the Army 
War College. He, as I indicated, had served as the Commander of 
the 17th Coast Guard District in Alaska, but, again, 
responsibilities and duties all over, including the Office of 
Chief Counsel, the project staff for Outer Continental Shelf 
Safety, Security, and Environmental Protection. He truly, 
again, has served our country with distinction and honor.
    I was able to introduce Admiral Barrett at a hearing, just 
last year, when he was named as the first Pipeline and 
Hazardous Material Safety Administrator for the Department of 
Transportation. That was back in May of 2006. He served in that 
capacity incredibly well. I had the opportunity to deal with 
him on some very difficult issues, but found a man who not only 
knew his background, but was an incredible administrator, 
incredible leader, and greatly appreciated that service.
    He has continued to hold that post as the Pipeline and 
Hazardous Materials Safety Administrator while simultaneously 
taking on the duties as the Acting Deputy Secretary of 
Transportation. This--these additional duties came on in March 
of this year.
    When he contacted me to let me know that he had been 
nominated by the President for this, I told him that I had some 
mixed feelings. I didn't want to lose him and all the focus 
that he had given in his capacity, but he assured me that he 
would remain committed to all that we had been working on, 
while, at the same time, stepping up to assume the 
responsibilities as Deputy Secretary of Transportation. I have 
every reason to believe that the 40 years of service that he 
has provided to this country will continue to be built upon in 
an exemplary manner.
    I am delighted, this morning, to introduce Admiral Barrett 
and to recommend him for confirmation as the Deputy Secretary 
of Transportation.
    The Chairman. I thank you very much, Senator Murkowski.
    Thank you, Mr. Secretary.
    Senator Olympia Snowe has asked me to announce her very 
strong support for the nomination of Mr. Brubaker, in light of 
his service to the citizens of the State of Maine. 
Unfortunately, because of scheduling conflicts, she cannot be 
with us, but she urged me to convey her regret in not being 
able to attend this meeting. Her full statement in support of 
Mr. Brubaker will be made part of the record.
    In addition, Senators Warner and Webb, of Virginia, have 
submitted statements in support of Mr. Spoehel.
    Our first witness is Vice Admiral Thomas J. Barrett, United 
States Coast Guard (Retired). He was nominated for Deputy 
Secretary-Designate, U.S. Department of Transportation.
    Admiral Barrett? Would you care to introduce your family? I 
notice that you have a--half the audience, here.

          STATEMENT OF VICE ADMIRAL THOMAS J. BARRETT,

         USCG (RET.), NOMINEE TO BE DEPUTY SECRETARY, 
               U.S. DEPARTMENT OF TRANSPORTATION

    Admiral Barrett. Mr. Chairman, thank you so much. I'd be 
delighted to introduce my wife, Sheila, and also, frankly, 
thank her for her support over the years to me, personally, to 
our family--we have four terrific kids, Tom, who is here, Matt, 
Becky, and Paul--and her service to our country. Both Tom, who 
is a Major in the United States Army--I'm extraordinarily proud 
of, and his wife, Jill--and our youngest son, Paul--are combat 
veterans from Iraq. And our other two kids are terrific. But 
Sheila has been instrumental in forging that family and that 
commitment. And I thank you for the opportunity to acknowledge 
them, sir.
    The Chairman. Please rise.
    [Applause.]
    The Chairman. Admiral, it's yours, now.
    Admiral Barrett. Mr. Chairman, good morning, again.
    I am deeply honored, and welcome the opportunity to appear 
before you today with these other distinguished nominees as you 
consider my nomination to serve as Deputy Secretary of the 
United States Department of Transportation.
    I'm honored to have been nominated by the President for 
this important responsibility, and, if confirmed, I look 
forward to energetically supporting Secretary Peters and our 
leadership team at the Department. And I commit to you that I 
will fully dedicate myself to ensuring the Department meets its 
vital obligations to the American public and continuing to work 
closely with you, the Committee, and your staff.
    Mr. Chairman, as you indicated earlier, the Department of 
Transportation plays a vital role for our Nation. Along with 
its operating modes, it administers comprehensive nationwide 
programs to protect our citizens and communities from risks to 
life, health, property, and the environment that are inherent 
in all modes of transportation. Department programs help 
develop, sustain, and maintain the air, surface, and maritime 
transportation systems that are a foundation of Americans' 
personal freedom and commercial mobility.
    And, as you indicated, America's economic vitality, its 
continued economic growth and ability to compete in a global 
economy depend upon dynamic and reliable transportation 
systems.
    Secretary Peters has focused the Department on safety, on 
improving transportation systems performance, including 
reducing congestion, and on bringing forward 21st century 
solutions to the transportation challenges we face. And, if 
confirmed, I look forward to advancing these priorities.
    Mr. Chairman, I believe my experience as Administrator of 
the Pipeline and Hazardous Material Safety Administration, as 
Chief Operating Officer of the Potomac Institute for Policy 
Studies, and my 35 years of experience in the Coast Guard in a 
broad range of assignments has provided me the management, 
leadership, and teamwork skills to succeed in the position for 
which I have been nominated. The experience has given me an 
excellent perspective on how organizations and their personnel 
work, how to maintain focus on mission objectives and achieve 
the performance that the administration, the Congress, you, and 
the public expects.
    My experiences have forged a bedrock commitment to safety, 
like yours, Mr. Chairman, and I appreciate your leadership in 
this area in the times I've appeared before you.
    I drive to constantly improve organizational performance, 
and a commitment to never ignore the people who carry out the 
Department's missions from the front lines. I fully appreciate 
the value of partnering with other Federal agencies, states, 
stakeholders, the public, and the Congress to build effective 
enterprise solutions to transportation challenges. I also 
understand and appreciate the need to work closely with the 
Department's Chief Budget Officer, the Inspector General, the 
Office of Management and Budget, and the Government 
Accountability Office to ensure the Department's programs are 
managed effectively and with efficiency.
    As Acting Deputy Secretary since March, I have also had the 
opportunity to closely observe and develop hands-on experience 
on major policy and management issues facing the Department.
    Mr. Chairman, I reiterate my commitment to you that, if 
confirmed, I will work, each and every day, as hard as I 
possibly can to effectively carry out the duties entrusted to 
me and to the Department.
    Thank you very much, sir, and I'm pleased to respond to any 
questions you may have.
    [The prepared statement and biographical information of 
Admiral Barrett follow:]

  Prepared Statement of Admiral Thomas Barrett, Nominee to be Deputy 
              Secretary, U.S. Department of Transportation
    Mr. Chairman, Mr. Vice Chairman, and other distinguished Members of 
the Committee, I am honored and welcome the opportunity to appear 
before you today with these other distinguished nominees as you 
consider my nomination to serve as Deputy Secretary of the United 
States Department of Transportation. I am honored to have been 
nominated by the President for this important responsibility and, if 
confirmed, I look forward to energetically supporting Secretary Mary 
Peters and her leadership team at the Department. I commit to you that 
I will fully dedicate myself to helping ensure the Department meets its 
vital obligations to the American public, and continuing to work 
closely with you, the Committee and your staff.
    Mr. Chairman, as you know, the Department of Transportation plays a 
vital role for our Nation. The Department and its operating modes 
administer comprehensive, nationwide programs to protect our citizens 
and communities from risks to life, health, property and the 
environment inherent in all modes of transportation. Departmental 
programs help develop, sustain and maintain the air, surface and 
maritime transportation systems that are a foundation of American 
personal freedom and commercial mobility. We all know America's 
economic vitality, continued economic growth and ability to compete in 
a global economy depend upon dynamic and reliable transportation 
systems. Secretary Peters has focused the Department on safety, 
improving transportation systems performance including reducing 
congestion, and bringing forward 21st century solutions to 
transportation challenges. If confirmed, I look forward to advancing 
these priorities.
    I believe my experience as the Administrator of the Pipelines and 
Hazardous Materials Safety Administration, as the Chief Operating 
Officer of the Potomac Institute for Policy Studies, and 35 years of 
experience in the Coast Guard in a broad range of assignments has 
provided me the management, leadership and teamwork skills to succeed 
in the position for which I have been nominated. This experience has 
given me an excellent perspective on how organizations and their 
personnel work, how to ensure and maintain focus on mission objectives 
and achieve the performance that the Administration, the Congress and 
the public expects. My experience has forged a bedrock commitment to 
safety, a drive to constantly improve organizational performance, and a 
commitment to never ignore the circumstances of the people who carry 
out Department missions from the front lines. I fully appreciate the 
value of partnering with other Federal agencies, states, stakeholders, 
the public and the Congress to build effective enterprise solutions to 
transportation challenges. I also understand the need to work closely 
with the Department's Chief Budget Officer, the Inspector General, the 
Office of Management and Budget and the Government Accountability 
Office to ensure the Department's programs are managed effectively and 
with efficiency. As Acting Deputy Secretary of Transportation since 
March, I have also had the opportunity to closely observe and develop 
hands-on experience on the major policy and management issues facing 
the Department.
    Mr. Chairman, I reiterate my commitment to you that, if confirmed, 
I will work each and every day as hard as I possibly can to effectively 
carry out the duties entrusted to me and to the Department.
    I thank you and am pleased to respond to any questions you may 
have.
                                 ______
                                 
                      a. biographical information
    1. Name (Include any former names or nicknames used): Barrett, 
Thomas J., Vice Admiral, U.S. Coast Guard, (Retired).
    2. Position to which nominated: Deputy Secretary, United States 
Department of Transportation.
    3. Date of Nomination: June 11, 2007.
    4. Address (List current place of residence and office addresses):

        Residence: Information not released to the public.
        Office: 1200 New Jersey Ave., SE, Washington, DC 20590.

    5. Date and Place of Birth: January 15, 1947; New York, NY.
    6. Provide the name, position, and place of employment for your 
spouse (if married) and the names and ages of your children (including 
stepchildren and children by a previous marriage).

        Spouse: Sheila M. Barrett, Docent/Executive Assistant, Women in 
        Military Service to America Memorial.

        Children: (Major) Thomas J. Barrett, 34; Matthew D. Barrett, 
        32; Rebecca S. (Barrett) Cooney, 29; Paul P. Barrett, 24.

    7. List all college and graduate degrees. Provide year and school 
attended.

        B.S., LeMoyne College, Syracuse, NY, 1968.
        Juris Doctor (with honors), George Washington University, 
        Washington, DC, 1976.

    8. List all post-graduate employment, and highlight all management-
level jobs held and any non-managerial jobs that relate to the position 
for which you are nominated.

    Post-graduate Employment:

        Scandinavian Airlines System, Kennedy Airport, NY, summer 1969.

        United States Coast Guard, 1969-2004.

        Potomac Institute for Policy Studies, 2005-2006.

        United States Department of Transportation, 2006-present.

    Management Level Jobs Held:

        Acting Deputy Secretary, U.S. DOT.

        Administrator, Pipeline and Hazardous Materials Safety 
        Administration, U.S. DOT.

        Vice President and Chief Operating Officer, Potomac Institute 
        for Policy Studies.

        Vice Commandant, United States Coast Guard.

        Commander, Seventeenth Coast Guard District and Naval Forces 
        Alaska.

        Director, Reserve and Training, United States Coast Guard.

        Commanding Officer, Support Center Kodiak Alaska, United States 
        Coast Guard.

        Chief, Legal Programs and Policy, United Stated Coast Guard.

        Deputy Commander, Maintenance and Logistics Command, Atlantic, 
        United States Coast Guard.

        Deputy Chief, Personnel and Training, United States Coast 
        Guard.

        Executive Officer, USCG Base/Support Center, Kodiak, Alaska.

        District Legal Officer, Seventeenth Coast Guard District, 
        United States Coast Guard.

    Other Related Jobs:

        Outer Continental Shelf Safety Staff, Office of Marine Safety 
        and Environmental Protection, United States Coast Guard.

        Claims and Litigation Staff, Office of Chief Counsel, United 
        States Coast Guard Deck Officer, USCGC CHASE.

    9. Attach a copy of your resume. A copy of my resume is attached.
    10. List any advisory, consultative, honorary or other part-time 
service or positions with Federal, State, or local governments, other 
than those listed above, within the last 5 years: None.
    11. List all positions held as an officer, director, trustee, 
partner, proprietor, agent, representative, or consultant of any 
corporation, company, firm, partnership, or other business, enterprise, 
educational or other institution within the last 5 years.

        Vice President and Chief Operating Officer, Potomac Institute 
        for Policy Studies.

        Director, National Capital Chapter, Navy League of the United 
        States.

    12. Please list each membership you have had during the past 10 
years or currently hold with any civic, social, charitable, 
educational, political, professional, fraternal, benevolent or 
religious organization, private club, or other membership organization. 
Include dates of membership and any positions you have held with any 
organization. Please note whether any such club or organization 
restricts membership on the basis of sex, race, color, religion, 
national origin, age or handicap.

    Memberships

        District of Columbia Bar, 1976-present.

        Reserve Officers Association, 1997-present.

        Navy League of the United States, 2004-present.

        Veterans of Foreign Wars of the United States, 1999-present.

        Coast Guard Combat Veterans Association, 2003-present.

        U.S. Naval Institute, 1976-present.

        Army War College Alumni Association, 1989-present.

        Juneau Alaska Downtown Rotary Association, 1999-2002.

        Alaska State Chamber of Commerce, Coast Guard Liaison, 2001-
        2002.

        North Pacific Fisheries Management Council (non-voting member), 
        1999-2002.

        Navy Enlisted Reserve Association, 1997-1999.

        U.S. Coast Guard Academy Board of Trustees, 1997-1999.

        None of these organizations restricts membership on the basis 
        of sex, race, religion, national origin, age or handicap.

    13. Have you ever been a candidate for public office? If so, 
indicate whether any campaign has any outstanding debt, the amount, and 
whether you are personally liable for that debt: I have never been a 
candidate for public office.
    14. Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past 10 years: None.
    15. List all scholarships, fellowships, honorary degrees, honorary 
society memberships, military medals and any other special recognition 
for outstanding service or achievements.

    Military Awards

        Coast Guard Distinguished Service Medal.

        Legion of Merit (5 awards).

        Coast Guard Meritorious Service Medal.

        Coast Guard Commendation Medal (2 awards).

        Coast Guard Achievement Medal.

        National Defense Service Medal (with 2 bronze stars).

        Humanitarian Service Medal.

        Vietnam Service Medal (with 2 bronze stars).

        Republic of Vietnam Campaign Medal.

        Secretary of Transportation 9/11 Medal.

        Secretary of Defense Service Badge.

        Commandant of the Coast Guard Staff Service Badge.

        Command Ashore Badge.

        Foreign Awards from the Republic of Georgia, Argentina, and 
        Malta.

    Civic Awards

        Citations for Service--18th Alaska Legislature; 22nd Alaska 
        Legislature.

        Commendation--Kodiak Island Borough.

        Commendation--Kodiak Island Borough School District.

        Veterans of Foreign Wars of the United States Exceptional 
        Service Award.

        Special Olympics--Special Friend Award.

    Scholarships

        New York State Regents College Scholarship.

        Teamsters College Scholarship.

    16. Please list each book, article, column, or publication you have 
authored, individually or with others, and any speeches that you have 
given on topics relevant to the position for which you have been 
nominated. Do not attach copies of these publications unless otherwise 
instructed.

    Articles

        The Guardian, Challenges and the Road Ahead (Commercial Vehicle 
        Safety Alliance), Second Quarter 2007.

        American Gas, April 2007, Enterprise Approach to Pipeline 
        Safety and Reliability.

        PHMSA Focus Administrator's Column (Quarterly).

        Deepwater Methods to Reduce Systems of Systems Risks (IEEE SMC 
        2005 Conference).

        Defending Ports (National Defense, May 2004).

        Naval Forces Magazine, One Team One Fight, Issue # 4/03.

        Coast Guard Oral History Project--Attack on America, September 
        11, 2001.

        Coast Guard Reservist Magazine--From the Bridge Columns, Tri-
        Monthly 1997-1999.

        Federal Maritime Commission Jurisdiction, George Washington 
        University Law Review Notes, 1976.

    Remarks relevant to the position for which nominated while at the 
Department of Transportation:

        Department of Transportation Telework Forum.
        Topic: Expanding Telework in the Department of Transportation.
        June 18, 2007.
        Washington, D.C.
        Department of Transportation's Asian Pacific Islander Month 
        Celebration.
        Topic: Contributions of Asian Pacific Americans to the 
        Department of Transportation and the United States.
        May 16, 2007.
        Washington, D.C.

        Bear Stearns Global Transportation Conference.
        Topic: Intersection of Transportation and the Economy.
        May 9, 2007.
        New York, NY.

        American International Automobile Dealers Association (AIADA) 
        and the Association of International Automobile Manufacturers 
        (AIAM) International Auto Summit.
        Topic: Importance of a Safe and Efficient Transportation System 
        in America.
        May 8, 2007.
        Washington, D.C.

        Common Ground Alliance Congressional Reception.
        Topic: Remarks on the Nationwide Campaign ``Call 811--Before 
        You Dig''.
        April 30, 2007.
        Washington, D.C.

        Council on Safe Transportation of Hazardous Materials Annual 
        Meeting.
        Topic: Keynote Remarks on Transportation of Hazardous 
        Materials.
        April 24, 2007.
        Scottsdale, AZ.

        American Petroleum Institute Annual Pipeline Conference.
        Topic: Keynote Remarks on Pipeline Safety Leadership, 
        Transparency, and Energy Reliability.
        April 18, 2007.
        Albuquerque, NM.

        Regional Emergency Transportation Coordinators & 
        Representatives Annual Conference.
        Topic: Secretary's Response Goals for the Year to Come.
        April 11, 2007.
        Via Teleconference from Washington, D.C.

        Combined Federal Campaign Closing Ceremony.
        Topic: Thanks to DOT employees who supported the Combined 
        Federal Campaign.
        April 5, 2007.
        Washington, D.C.

        Keynote Address at the Motor Carrier Safety Association 
        Conference.
        Topic: Importance of Safe and Efficient Transportation Systems 
        in America.
        March 26, 2007.
        Atlanta, GA.

        Chlorine Institute's Annual Meeting.
        Topic: Keynote Remarks on Risk Management.
        March 20, 2007.
        Houston, TX.

        Compressed Gas Association Annual Meeting.
        Topic: Keynote Remarks on Risk Management.
        March 19, 2007.
        St. Petersburg, FL.

        Common Ground Alliance Annual Meeting.
        Topic: Enterprise Approach to Reducing Significant Safety Risk.
        March 7, 2007.
        Orlando, FL.

        American Gas Association Annual Board Meeting.
        Topic: Keynote Address on Partnerships, Energy Reliability, 
        Transparency, and Leadership.
        February 19, 2007.
        Washington, D.C.

        Pipeline and Hazardous Materials Safety Administration Research 
        and Development Public Conference.
        Topic: The Importance of Investing in R&D to Safe Energy 
        Infrastructure.
        February 7, 2007.
        New Orleans, LA.

        Interstate Natural Gas Association of America Annual Board 
        Meeting.
        Topic: Keynote Remarks on System Risk Management, Partnerships, 
        Transparency, Energy Reliability, and Leadership.
        January 25-26, 2007.
        Houston, TX.

        Cooperative Hazardous Materials Enforcement and Development 
        Annual Meeting.
        Topic: Keynote Remarks on System Risk Management, Partnerships, 
        Transparency, and Leadership.
        January 23, 2007.
        Salt Lake City, UT.

        Association of Oil Pipe Lines/American Petroleum Institute's 
        Winter Meeting.
        Topic: Importance of Data Driven System Risk Management, 
        Leadership, Transparency, and Energy Reliability.
        November 30, 2006.
        Washington, D.C.

        Dangerous Goods Advisory Council Annual Meeting.
        Topic: Keynote Address on System Risk Management, Partnerships, 
        Transparency, and Leadership.
        November 16, 2006.
        Crystal City, VA.

        Pipeline Safety Trust Annual Meeting.
        Topic: Keynote Address on Enforcement Transparency and Public/
        Community Involvement in Safety Issues.
        November 3, 2006.
        New Orleans, LA.

        National Association of State Pipeline Safety Representatives.
        Topic: Keynote Address on State Partnerships, Enforcement 
        Transparency, Energy Reliability, and Leadership.
        November 2, 2006.
        Little Rock, AK.

        Emergency Preparedness Grant Announcement for First Responders.
        Topic: Grant Announcement.
        October 26, 2006.
        Houston, TX.

        Emergency Preparedness Grant Announcement for First Responders.
        Topic: Grant Announcement.
        October 25, 2006.
        Monroe, LA.

        Emergency Preparedness Grant Announcement for First Responders.
        Topic: Grant Announcement.
        October 19, 2006.
        Oakland, CA.

        Arizona Emergency Response Commission Annual Meeting.
        Topic: Keynote Remarks on Emergency Response Readiness, 
        Training, and the Value of Partnerships.
        October 17, 2006.
        Casa Grande, AZ.

        Emergency Preparedness Grant Announcement for First Responders.
        Topic: Grant Announcement.
        October 17, 2006.
        Phoenix, AZ.

        Listening Session with Alaska Congressional Delegation.
        Topic: PHMSA Actions to Oversee BP Performance.
        October 13, 2006.
        Anchorage, AK.

        Emergency Preparedness Grant Announcement for First Responders.
        Topic: Grant Announcement.
        October 12, 2006.
        Bellevue, WA.
        International Vessel Operators Hazardous Materials Association 
        Annual Meeting.
        Topic: Keynote Remarks on the Importance of System Risk 
        Management, Partnerships for Safety Results, Transparency, and 
        Leadership.
        October 11, 2006.
        Long Beach, CA.

        American Steel Factory.
        Topic: Jobs and Our Economy, Pipeline Manufacturing Quality 
        Assurance.
        October 10, 2006.
        Birmingham, AL.

        Emergency Preparedness Grant Announcement for First Responders.
        Topic: Grant Announcement.
        October 9, 2006.
        Philadelphia, PA.

        Chamber of Commerce Annual Meeting.
        Topic: Keynote Address on BP Pipeline Oversight.
        October 7, 2006.
        Kodiak, AK.

        Emergency Preparedness Grant Announcement for First Responders.
        Topic: Grant Announcement.
        October 4, 2006.
        Pittsburgh, PA.

        National Association of State Fire Marshals.
        Topic: ``Prevention through People'', Systems Risk Management, 
        Partnerships, and Leadership.
        October 3, 2006.
        College Station, TX.

        American Pyrotechnics Association Annual Meeting.
        Topic: Keynote Remarks on Risk Management and Enforcement 
        Transparency.
        September 16, 2006.
        Nashville, TN.

        Pipeline and Hazardous Materials Safety Administration Annual 
        Enforcement Meeting.
        Topic: Remarks on Data Driven, System Risk Management, 
        Inspection, and Enforcement; Resource Allocation.
        September 13, 2006.
        Solomons Island, MD.

        National Association of State Fire Marshals Annual Meeting.
        Topic: Brief Remarks, Awards.
        August 12, 2006.
        Washington, D.C.

        Interested Parties on Hazardous Materials Transportation.
        Topic: Safety Issues Pertaining to the Transportation of 
        Hazardous Materials.
        July 26, 2006.
        Washington, D.C.

        Pipeline Safety Trust Board/Family Members of Bellingham 
        Accident.
        Topic: Thanks for Work to Advance Pipeline Safety and PHMSA 
        Commitment to Safe Operations.
        July 6, 2006.
        Bellingham, WA.

        Department of Transportation's Pipeline and Hazardous Materials 
        Safety Administration's Technical Standards Committee.
        Topic: PHMSA's Role in Promoting the Safe Transportation of 
        Hazardous Materials.
        June 28, 2006.
        Washington, D.C.

        Department of Veterans Affairs.
        Topic: Award Acceptance, Speech at their 5th Annual Champions 
        of Veterans Enterprise Program.
        June 14, 2006.
        Washington, D.C.
    Remarks while at Potomac Institute for Policy Studies:

        Panelist
        Topic: Stun Guns--Safety of Use.
        Potomac Institute for Policy Studies Workshop.
        February 23-24 2005.
        Arlington, VA.

        Panelist
        Topic: Role of the Military in Combating Terrorism.
        Potomac Institute for Policy Studies Workshop.
        May 17, 2005.
        Arlington, VA.

        Coast Guard Innovation Conference.
        Topic: The New Security Environment.
        May 4, 2005.
        San Jose, CA.

        34th Institute for Foreign Policy Analysis and Fletcher School 
        Conference.
        Topic: Security Planning and Military Transformation after 
        Iraqi Freedom.
        December 4, 2003.
        Washington, D.C.

    I spoke regularly on service-related issues and priorities while 
Coast Guard Vice Commandant, Coast Guard Commander in Alaska and 
Director of Coast Guard Director of Reserve and Training in multiple 
public forums. Audiences included Coast Guard personnel, stakeholders, 
civic organizations, and the general public. I do not have records 
reflecting these events.

    17. Please identify each instance in which you have testified 
orally or in writing before Congress in a governmental or non-
governmental capacity and specify the date and subject matter of each 
testimony.
    (All appearances were in a governmental capacity)

        House Appropriations Committee.
        Topic: Hearing on Surface Transportation Safety and PHMSA FY 08 
        Budget Request.
        March 29, 2007.
        Washington, D.C.

        Senate Commerce, Science, and Transportation Committee.
        Topic: Hearing on Hazardous Materials Rail Security.
        January 18, 2007.
        Washington, D.C.

        Senate Commerce, Science, and Transportation Committee.
        Topic: Hearing on the Pipeline Safety Reauthorization.
        November 16, 2006.
        Washington, D.C.

        House Committee on Transportation and Infrastructure.
        Topic: Hearing on the Oversight of BP Prudhoe Bay Pipelines.
        September 13, 2006.
        Washington, D.C.

        Senate Committee on Energy and Natural Resources.
        Topic: Hearing on the Oversight of BP Pipelines.
        September 12, 2006.
        Washington, D.C.

        House Committee on Energy and Commerce.
        Topic: Oversight and Investigations of the BP Prudhoe Bay 
        Pipelines.
        September 7, 2006.
        Washington, D.C.

        House Energy and Commerce Committee.
        Topic: Oversight Hearing on Discussion Draft of the Pipeline 
        Safety and Reliability Act of 2006.
        July 27, 2006.
        Washington, D.C.

        House Committee on Government Reform.
        Topic: Government/Industry Preparedness for 2006 Hurricane 
        Season.
        June 2, 2006.
        Washington, D.C.
        House Subcommittee on Coast Guard and Marine Transportation.
        Topic: Coast Guard Integrated Deepwater System.
        April 26, 2004.
        Washington, D.C.

        Subcommittee on Oceans and Fisheries.
        Senate Committee on Commerce, Science, and Transportation.
        Topic: Magnuson-Stevens Fisheries Conservation and Management 
        Act.
        June 18, 2000.
        Anchorage, AK.

    18. Given the current mission, major programs, and major 
operational objectives of the department/agency to which you have been 
nominated, what in your background or employment experience do you 
believe affirmatively qualifies you for appointment to the position for 
which you have been nominated, and why do you wish to serve in that 
position?
    From my service in the United States Coast Guard, work at Potomac 
Institute, and most recently as the first Administrator of the Pipeline 
and Hazardous Materials Safety Administration (PHMSA), I gained broad 
experience at both the operational and policy level related to 
transportation, transportation safety, transportation security, 
environmental protection, systems risk management, strategic planning, 
program budget planning and execution, public communication, and 
outreach. I understand and appreciate the value of partnering with 
other Federal agencies, states, stakeholders, the public, and the 
Congress to build effective enterprise solutions to transportation 
challenges. I understand the need and processes for effective and 
transparent Federal oversight and enforcement of Federal laws and 
regulations, the need to exercise fiscal discipline in Federal 
programs, the importance of sound performance measures, and the need 
for close attention to the capabilities, development, and performance 
of the Federal employees who carry out the Department missions on a 
daily basis.
    If confirmed by the Senate, I strongly desire to serve as Deputy 
Secretary of Transportation because I truly believe the Department's 
missions are crucial to the safety, mobility and well-being of the 
American public and critical to continued growth of the American 
economy. I believe I have the requisite skills, experience and 
determination to affect a strong positive influence on Department 
mission outcomes. I am also energized by the leadership of Secretary of 
Transportation Mary Peters and desire to help advance her priorities 
for the Department.
    19. What do you believe are your responsibilities, if confirmed, to 
ensure that the department/agency has proper management and accounting 
controls, and what experience do you have in managing a large 
organization?
    If confirmed, I believe the Deputy Secretary is obligated to work 
closely with the Assistant Secretary for Budget (the CFO), the modal 
administrators, and in step with the recommendations of the Inspector 
General of the Department, the Office of Management and Budget, and the 
Government Accountability Office to ensure that Departmental programs 
have appropriate management and accounting controls, which are properly 
adhered to. Further, I believe that if gaps are uncovered, it is the 
responsibility of the Deputy Secretary to direct suitable and timely 
actions to correct any problems. My experience includes direct 
management responsibility for Federal program planning, budgeting, 
execution, oversight, and personnel leadership at multiple levels, 
including significant operational and program oversight 
responsibilities for a 46,000-person Federal agency with a $6.5 billion 
budget as the Coast Guard Vice Commandant. As Administrator for the 
Pipeline and Hazardous Materials Safety Administration since June 2006, 
and most recently as Acting Deputy Secretary of Transportation, I have 
also had the opportunity to closely observe and directly support the 
priorities of former Secretary Norman Mineta and Secretary Mary Peters 
and gain further hands-on experience on the current major policy and 
management issues facing the Department of Transportation.
    20. What do you believe to be the top three challenges facing the 
department/agency, and why?
    The following describes what I believe to be the top three 
challenges facing the Department of Transportation:

        1. Improving transportation safety is an abiding Department 
        responsibility, the Department's highest priority and greatest 
        challenge. Safe travel is the expectation of the public, and 
        the consequences of failure are tragic for individuals, 
        families, and our communities. Despite steady safety progress 
        in many areas of transportation, more remains to be done, and 
        safety issues demand unrelenting attention.

        2. Improving transportation systems performance. The ability of 
        U.S. transportation systems to move products and people 
        efficiently is vital to our security, economy, and ability to 
        compete effectively in a global marketplace. It underpins our 
        individual freedom to live and work where and how as we choose. 
        Our current transportation systems are strained to capacity, 
        challenged by aging infrastructure, and hobbled by outdated 
        policies and technology. We need to improve how we build, 
        sustain, and grow this crucial national capability, bringing 
        new approaches and 21st century solutions to bear.

        3. Ensuring the high quality performance of the Federal DOT 
        workforce. Simply put, our strength is in the performance of 
        our people; the DOT workforce is aging, and recruiting and 
        retention of qualified personnel, especially in technical and 
        engineering areas is an increasing challenge. We need to 
        successfully position this workforce to meet future Federal 
        transportation requirements.
                   b. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers.
    I have a 403(b) retirement plan funded while I was working at 
Potomac Institute. I have severed my employment and business 
association with Potomac Institute and Potomac Institute no longer 
makes any contributions to the plan. I have no other financial or 
deferred compensation arrangements.
    2. Do you have any commitments or agreements, formal or informal, 
to maintain employment, affiliation or practice with any business, 
association or other organization during your appointment? If so, 
please explain.
    I have no such commitments or agreements.
    3. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.
    None other than common stock in Nationwide Financial Services, 
referred to in the attached Deputy General Counsel opinion letter.
    4. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 5 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated: None.
    5. Describe any activity during the past 10 years in which you have 
been engaged for the purpose of directly or indirectly influencing the 
passage, defeat, or modification of any legislation or affecting the 
administration and execution of law or public policy.
    None other than official duties with the Coast Guard and the 
Department of Transportation related to the execution of U.S. laws and 
policies.
    6. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items.
    In accordance with the attached letter of the Deputy General 
Counsel.
                            c. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics 
by, or been the subject of a complaint to any court, administrative 
agency, professional association, disciplinary committee, or other 
professional group? If so, please explain. No.
    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, State, or other law enforcement authority of any Federal, 
State, county, or municipal entity, other than for a minor traffic 
offense? If so, please explain. No.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in an administrative agency proceeding or 
civil litigation? If so, please explain. No.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, please explain. No.
    5. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination: None.
    6. Have you ever been accused, formally or informally, of sexual 
harassment or discrimination on the basis of sex, race, religion or any 
other basis? If so, please explain.
    While serving as the Commanding Officer of the Coast Guard Support 
Center at Kodiak, Alaska, I was accused (informally) by a petty officer 
of harassment because I ordered her to see a Coast Guard physician to 
evaluate whether she was suicidal. At the time, I had reason to believe 
she might have been. The complaint was informally investigated and 
dismissed.
                     d. relationship with committee
    1. Will you ensure that your department/agency complies with 
deadlines for information set by Congressional committees? Yes.
    2. Will you ensure that your department/agency does whatever it can 
to protect Congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Yes.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.
                                 ______
                                 
         resume of thomas j. barrett, vice admiral, uscg (ret.)
Executive Summary
    Known for strengthening organizational values, clearly identifying 
strategic issues and goals, creating stakeholder partnerships, applying 
sound operational and business practices. fostering teamwork across a 
diverse work force, and ensuring program, policy, budget and 
communications alignment. Performance characterized by outcome focus, 
systems perspective, attention to people, and energetic execution.
Professional Experience
    Acting Deputy Secretary, U.S. Department of Transportation, March 
2006 to present.

        Principal Advisor to Secretary of Transportation. Provide 
        oversight and direction to ensure effectiveness and efficiency 
        of Department operating programs. COO; responsible for day-to-
        day management of the Department's $61.1 million budget, 10 
        modal administrations, and 60,000 employees. Overseeing move of 
        Department Headquarters to new SE Federal Center, increasing 
        telecommuting by Department employees, ensuring Department 
        readiness for hurricanes and other disasters, strengthening 
        Department's safety initiatives, and identifying transportation 
        infrastructure obstacles to expanding alternate energy 
        development.

    Administrator, Pipeline and Hazardous Materials Safety 
Administration, U.S. Department of Transportation, President Appointed/
Senate Confirmed, June 2005 to present.

        Agency CEO. Advises the Secretary of Transportation on all 
        matters within Pipeline and Hazardous Materials Safety 
        Administration (PHMSA) jurisdiction. Directs national programs 
        for reducing risks to life and property inherent in the 
        transportation of hazardous materials in commerce and 
        transportation of liquid, natural gas, petroleum, and other 
        hazardous materials by pipeline. Partnered with the 
        Administration, Congress, and stakeholders to achieve 
        reauthorization of the Pipeline Safety Act, which bolsters 
        state excavation damage prevention programs. the largest single 
        cause of pipeline failures. Launched National 811 ``Call Before 
        You Dig'' initiative with Common Ground Alliance. Increased 
        oversight of British Petroleum and key national energy 
        infrastructure at Prudhoe Bay, Alaska, following pipeline 
        ruptures. Worked with Congress to close oversight gaps. 
        Eliminated jurisdictional conflicts and improved system 
        oversight by agreements with the Transportation Security 
        Administration and the State of Alaska Department of Natural 
        Resources. Increased public transparency of agency enforcement 
        programs and focused public attention on pipeline and hazardous 
        materials issues.

    Vice President and Chief Operating Officer, Potomac Institute for 
Policy Studies, January 2005-March 2006.

        Directed business activities, participated in policy studies at 
        501(c)(3) independent policy institute focused on national 
        science and technology, national security, and homeland 
        security policy. Reduced operating costs, improved IT support, 
        and contributed to studies and papers related to combating 
        terrorism, microelectronics, non-lethal weapons, improvised 
        explosive devices, system of systems, and cyber defense.

    Vice Commandant, United States Coast Guard, 2002 to 2004.

        Second in Command of 46,000 person, $6.5 billion, maritime 
        Armed Force. Directed Service in Commandant's absence. 
        Principal policy advisor to the Commandant. Coordinated Coast 
        Guard Leadership Council which issued agency strategic 
        direction. Agency Acquisition Executive. Performance 
        instrumental to Coast Guard success with post-9/11 increase in 
        maritime security responsibilities, move to new Department of 
        Homeland Security, standup of Coast Guard membership in the 
        National Foreign Intelligence community and support to 
        Operation Iraqi Freedom, while sustaining other missions 
        including counter-drug, migrant interdiction, environmental 
        protection, living resource protection, and search and rescue. 
        Agency performance metrics positive (e.g., lives saved, 
        migrants interdicted, illicit drugs seized). As Acting 
        Commandant, directed successful response to December, 2003, 
        heightened security evolution, Haitian government collapse, and 
        the successful repatriation of thousands of migrants in 
        difficult circumstances while preventing an influx of refugees 
        into South Florida.

    Commander, Seventeenth Coast Guard District, United States Coast 
Guard, 1999 to 2002.

        Directed Coast Guard operations in Alaska and the North 
        Pacific. Commander, Naval Forces Alaska. Delivered Operational 
        Excellence across all mission areas. Post-9/11, devised and 
        implemented a robust maritime security program to detect and 
        deter terrorist threats that was fully integrated with Alaska 
        Command, the Department of Justice, and the State of Alaska. 
        Accident-free search and rescue program with 675 lives saved in 
        over 2,200 cases. Implemented proactive, non-regulatory safety 
        programs (Ready for Sea) to reduce risk. Partnered with state 
        and Federal agencies, tanker and terminal operators to improve 
        system risk management and safety of petroleum and shipping 
        movements in Prince William Sound/Port of Valdez. Partnered 
        with Federal and state agencies, cruise ship industry, interest 
        groups and concerned citizens to sustain cruise ship activity 
        while reducing harmful discharges into Alaskan waters. Led 
        protection of Alaskan Fisheries through expanded enforcement to 
        deter illegal high-seas driftnet fishing and maritime boundary 
        incursions. Achieved the most foreign vessel seizures in 15 
        years and an 80 percent reduction in incursions. Built close 
        partnership with the Russian Federal Border Service. To reduce 
        safety risks, partnered with the State of Alaska to delay 
        fisheries openings when storms forecast.

    Director of Reserve and Training, United Stated Coast Guard, 1997 
to 1999.

        Directed all Coast Guard officer and enlisted training and 
        leadership development programs. Directed Coast Reserve. 
        Member, Board of Trustees, Coast Guard Academy. Expanded use of 
        performance technology, resulting in numerous process 
        improvements, including significant reduction in recruit 
        attrition at boot camp. Oversaw standup of new Leadership and 
        Development Center at Coast Guard Academy. Consolidated and 
        aligned all Coast Guard officer and enlisted leadership 
        development programs, improved personnel conduct and 
        performance across the agency, and restored 8,000 member 
        Reserve to authorized strength from 25 percent shortfall.

    Deputy Commander, Maintenance and Logistic Command, Atlantic, 
United States Coast Guard, 1996 to 1997.

        Instrumental to relocation of 500-person engineering and 
        logistics command from Governors Island, NY to Norfolk, VA. 
        Within weeks of relocation, despite staff vacancies of up to 50 
        percent managed successful response to two hurricanes, TWA 800 
        crash, and urgent need for expanded forward support bases for 
        counter-drug mission in Caribbean. Expanded use of performance 
        metrics. Improved resource visibility helped Command meet 
        three-fold increase in temporary personnel demand despite 
        reduced pool to draw from. Increased cutter availability by 
        reducing unscheduled yard days.

    Deputy Chief, Personnel and Training, United States Coast Guard, 
1994 to 1996.

        Realigned office to meet or exceed all performance goals with 
        24 percent reduction in staff. Revised agency personnel 
        policies on fraternization and sexual harassment to better 
        address increasing number of women service members. Introduced 
        strategic planning to office by in depth budget analysis, and 
        recouped $450,000 for reallocation to tier one objectives.

    Commanding Officer, Support Center Kodiak, United States Coast 
Guard, 1991 to 1994.

        Developed and implemented strategic vision and initiatives that 
        delivered consistent ``Rock Solid'' Support by Coast Guard's 
        largest/most complex base. Formed environmental partnerships 
        with DOD, Federal, and state regulatory agencies to accelerate 
        clean up of waste sites. Partnered with community to provide 
        elementary school on base during renovation of community school 
        buildings. Established multiple cooperative agreements with 
        state and local law enforcement, fire departments, and medical 
        services to conserve tax funds and improve services.

    Special Assistant to Chief Counsel, Chief Legal Programs and 
Policy, United States Coast Guard, 1989 to 1991.

        Managed all senior attorney assignments for the Chief Counsel. 
        Rebalanced program assets to improve program legal services 
        without additional resources. Overhauled program information 
        sharing to reduce duplication of work. Implemented electronic 
        and voice mail and conversion of research data to CD-ROMs, the 
        first such use in the Coast Guard.

    Executive Officer, USCG Base/Support Center Kodiak, United States 
Coast Guard, 1985 to 1988.

        As part of service-wide initiative, contracted base services, 
        reducing costs by over $2 million annually. Coordinated 
        numerous CG/DOD exercises in Northern regions. Instrumental to 
        establishing U.S. Navy Seal training facility on Kodiak.

    Principal Assistant/District Legal Officer, United States Coast 
Guard, 1981 to 1985.

        Provided operational and program support legal advice, 
        opinions, and guidance for Coast Guard operations in Alaska. 
        Devised process to adjudicate seized foreign fishing vessels 
        under the Magnuson Fishery Conservation and Management Act. 
        Aided successful prosecution of 18 cases. Identified fraud in 
        government construction contract and pursued contractor, 
        eliminating over $3 million in claims against the government.

    Office of Marine Safety and Environmental Protection, United States 
Coast Guard, 1978 to 1981.

        Special Project Staff for Outer Continental Shelf Safety and 
        Implementation of the Outer Continental Shelf Lands Act.

    Claims and Litigation Staff--Office of Chief Counsel, United States 
Coast Guard, 1976 to 1978.

    Public Affairs Officer/Aide to the District Commander, United 
States Coast Guard, 1971 to 1973.

    Deck Officer--USCGC CHASE (WHEC-718), United States Coast Guard, 
1969 to 1971.

        Vietnam Service

Education
    J.D. with Honors, 1976, George Washington University, Washington, 
D.C., Law Review; Coif.

    B.S., Biology, 1968, Lemoyne College Syracuse, NY.

    Capstone Course in National Security Strategy and Military 
Capabilities, 1996, National Defense University Washington, D.C.

    Military Strategic Studies, 1988-1989, Army War College, Carlisle, 
PA.

Other
        Security Clearance--TS/SSBI (current).

        Member, District of Columbia Bar.

        Member, United States Naval Institute.

        Life Member, Veterans of Foreign Wars of the United States, 
        Coast Guard Combat Veterans Association.

    The Chairman. I thank you very much, Admiral.
    Our next nominee is Mr. Paul R. Brubaker. He has been 
nominated to serve as Administrator of the Research and 
Innovative Technology Administration of the Department of 
Transportation.
    Congratulations, and welcome, sir.

          STATEMENT OF PAUL R. BRUBAKER, NOMINEE TO BE

       ADMINISTRATOR, RESEARCH AND INNOVATIVE TECHNOLOGY

       ADMINISTRATION, U.S. DEPARTMENT OF TRANSPORTATION

    Mr. Brubaker. Thank you very much.
    The Chairman. Would you care to introduce your family 
before----
    Mr. Brubaker. Yes, I'd love to----
    The Chairman.--you proceed?
    Mr. Brubaker.--Mr. Chairman.
    My lovely wife, Carolyn here, I'd like to publicly thank 
her for all the support she's given me over my career. My 
little son, Gavin, who's 4, he's a wonderful little boy. And my 
mother-in-law, Ruth Ann Renford. My 7-year-old, who suffers 
from autism, is actually out playing in the elevators right 
now, which he finds far more thrilling than Daddy's hearing, 
so--but I do want to publicly thank them for being supportive 
of me throughout my career.
    The Chairman. Please.
    [Applause.]
    The Chairman. Mr. Brubaker?
    Mr. Brubaker. Chairman Inouye, distinguished Members of the 
Committee, it is a privilege to appear before you today, and I 
appreciate your time and consideration.
    I am grateful for the confidence shown in me by the 
President and Secretary Peters for nominating me for this 
important position.
    I would also like to thank Secretary Cohen for his kind 
remarks, as well as what I affectionately refer to as ``Team 
Cohen,'' who is a group of former staffers and people who have 
been affiliated with Secretary Cohen over the years, for their 
moral support to me throughout my career.
    Mr. Chairman, the constant and efficient movement of people 
and goods across our country, and, indeed, around the globe, is 
crucial to sustaining our global economic leadership and 
ensuring the quality of life for all Americans. Yet, the 
increasing demands placed on our transportation system to meet 
the needs of our growing population, changing demographics, and 
logistical demands of commerce are placing unprecedented stress 
on our system. Overcoming these challenges will increasingly 
rely on the development and deployment of new technologies and 
solutions. Because of this, the Research and Innovative 
Technology Administration, or RITA, plays an increasingly 
important role coordinating the research and development 
activities across the Department in order to maximize the 
benefit of our multibillion-dollar investment in 
transportation-related technologies.
    I believe my government experience at the GAO, the U.S. 
Senate, the Department of Defense, as well as my private-sector 
experience in the technology industry, will serve me well, 
should I be confirmed as the next RITA Administrator. Over the 
past few decades, I've been exposed to the commercialization 
and application of many transformational technologies and 
innovations. And, should I be confirmed, I look forward to 
working with the Department and the stakeholders to introduce 
these exciting capabilities. If confirmed, I welcome the 
opportunity to work with the Committee to advance our 
transportation interests and maximize the benefits of 
transportation-related innovation and technology to improve the 
quality of life for all Americans.
    Thank you for the opportunity to appear before you today, 
and I welcome any questions the Committee may have.
    [The biographical information of Mr. Brubaker follows:]

             a. biographical information and qualifications
    1. Name (Include any former names or nicknames used): Paul Richard 
Brubaker.
    2. Position to which nominated: Administrator, Research and 
Innovative Technology Administration, United States Department of 
Transportation.
    3. Date of Nomination: June 18, 2007.
    4. Address (List current place of residence and office addresses):

        Residence: Information not released to the public.

        Office: 12030 Sunrise Valley Drive, Suite 120, Reston, Virginia 
        20191.

    5. Date and Place of Birth: January 25, 1961; Youngstown, Ohio.
    6. Provide the name, position, and place of employment for your 
spouse (if married) and the names and ages of your children (including 
stepchildren and children by a previous marriage).

        Spouse: Carolyn Kay Brubaker, Business Development, Microsoft 
        Corporation.

        Children: Jackson Beil Brubaker, 7; Gavin Spencer Brubaker, 4.

    7. List all college and graduate degrees. Provide year and school 
attended.

        B.A., Youngstown State University, 1983.
        M.P.A., Kent State University, 1985.

    8. List all post-undergraduate employment, and highlight all 
management-level jobs held and any non-managerial jobs that relate to 
the position for which you are nominated.

    Post-graduate Employment:

        Program Manager, City of Stow, Ohio, 1984-1985.

        Broker, E.F. Hutton, 1985-1986.

        Evaluator and Senior Evaluator, U.S. General Accounting Office, 
        1987-1991.

        GAO Detail, Senate Appropriations Committee, 1990-1991.

        Staff Investigator, Senate Subcommittee on Oversight of 
        Government Management, Senate Committee on Governmental 
        Affairs, 1992-1993.

    Management Level Jobs Held:

        Republican Staff Director, Deputy Staff Director, Senate 
        Subcommittee on Oversight of Government Management, Senate 
        Committee on Governmental Affairs, 1993-1996.

        Vice President, Business Development, Federal Data 
        Incorporated, 1996-1997.

        Vice President, Strategic Programs, Litton PRC, 1997-1999.

        Principal Director and Deputy Assistant Secretary of Defense 
        (Deputy CIO), Department of Defense, 1999-2001.

        President, Commerce One e-Government Solutions, 2001.

        CEO, Aquilent (formerly Commerce One e-Government Solutions 
        Inc.), 2002.

        Founder and Partner, ICG Government, 2002-2003.

        Executive Vice President and Chief Marketing Officer, SI 
        International, 2003-2006.

        CEO and Chairman of Board of Directors, Procentrix, 2006-
        present.

    9. Attach a copy of your resume. A copy is attached.
    10. List any advisory, consultative, honorary, or other part-time 
service or positions with Federal, State, or local governments, other 
than those listed above, within the last 5 years.

        Innovative Technology Authority (Center for Innovative 
        Technology).
        Commonwealth of Virginia, Board Member (1998-2003), Chairman 
        (2001-2003).

    11. List all positions held as an officer, director, trustee, 
partner, proprietor, agent, representative, or consultant of any 
corporation, company, firm, partnership, or other business, enterprise, 
educational, or other institution within the last 5 years.

        CEO and Director, Aquilent.

        Founder and Partner, ICG Government.

        Executive Vice President, SI International.

        CEO and Chairman of Board of Directors, Procentrix.

        Sole proprietor for condominium in Florida (created 6/07), PR 
        Brubaker LLC.

    12. Please list each membership you have had during the past 10 
years or currently hold with any civic, social, charitable, 
educational, political, professional, fraternal, benevolent or 
religious organization, private club, or other membership organization. 
Include dates of membership and any positions you have held with any 
organization. Please note whether any such club or organization 
restricts membership on the basis of sex, race, color, religion, 
national origin, age, or handicap.

    Memberships:

        Armed Forces Communication and Electronics Association (AFCEA) 
        (1996-present).

                Chairman Emeritus, Technical Committee (present).

                Past President, DC Chapter (2006-present).

                Board of Directors DC Chapter (2001-present).

                Chairman, Technical Committee AFCEA International 
                (2004-2006).

                Board Member, Technical Committee AFCEA International 
                (2001-2006).

                President, DC Chapter (2005-2006).

                Vice President, DC Chapter (2004-2005).

                Treasurer, DC Chapter (2003-2004).

                Secretary, DC Chapter (2002-2003).

        Industry Advisory Council (2001-present).

        Industry Chairman, Management of Change Conference (2001).

        Information Technology Association of America (2001-present).

        Northern Virginia Technology Council (2006-present).

        Winston S. Churchill Centre (2002-present).

                Churchill Centre Fellow (2005-2007).

                Churchill Centre Associate (2006-present).

                Churchill Centre Leadership Committee (2006-present).

                Churchill Centre Audit Committee Member (2006-present).

        Council for Excellence in Government (1996-present).

        Tower Club (1996-present).

        University Club of Washington, D.C. (2006-present).

    13. Have you ever been a candidate for and/or held a public office 
(elected, non-elected, or appointed)? If so, indicate whether any 
campaign has any outstanding debt, the amount, and whether you are 
personally liable for that debt.
    Yes. I ran for the Virginia State Senate in 1995. The campaign has 
no outstanding debt.
    14. Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past 10 years. Also list all offices you 
have held with, and services rendered to, a state or national political 
party or election committee during the same period.

        Tom Davis for Congress
        (6/21/2001) $250.00
        (10/21/2002) $500.00
        (12/09/2003) $1,000.00
        (12/13/2005) $1,000.00
        (4/10/2006) $400.00
        (4/10/2006) $1,100.00
        (6/30/2006) $1,700.00

        Collins for Senator
        (10/09/2002) $500.00
        (3/31/2007) $1,000.00

        Snowe for Senate
        (7/27/2006) $1,000.00
        (10/18/2006) $1,000.00

        Friends of Joe Lieberman
        (11/01/2006) $500.00

        Friends of George Allen
        (11/12/1999) $500.00
        (4/12/2003) $1,000.00
        (3/23/2005) $250.00
        (6/08/2005) $1,000.00

        Federal Victory Fund
        (8/21/2003) $500.00
        (6/21/2003) $1,000.00

        Bush for President
        (8/05/1999) $500.00

        SI International Political Action Committee
        The total aggregate contribution was $8,880.

        Jeannemarie Devolites for House (Virginia House of Delegates)
        (1/29/2003) $500.00

        Mark Earley for Governor
        (7/24/2001) $1,000.00

    15. List all scholarships, fellowships, honorary degrees, honorary 
society memberships, military medals, and any other special recognition 
for outstanding service or achievements.

        Department of Defense Medal for Distinguished Public Service 
        (with bronze palm), 2001.

        Association for Federal Information Resource Management, 
        Government Executive of the Year, 2000.

        Federal Computer Week, Federal 100, 1996 and 2002.

    16. Please list each book, article, column, or publication you have 
authored, individually or with others. Also list any speeches that you 
have given on topics relevant to the position for which you have been 
nominated. Do not attach copies of these publications unless otherwise 
instructed.
    I have published articles for Federal Computer Week but mostly 
relating to technology acquisition policy (e.g., ``Before Clinger-Cohen 
there was Chaos'' published in FCW on June 6, 2005). I have also given 
a number of technology-policy related speeches although virtually none 
were scripted. I also regularly lecture before software acquisition 
classes at the Defense Acquisition University on the development of 
technology-related acquisition statutes.
    17. Please identify each instance in which you have testified 
orally or in writing before Congress in a governmental or non-
governmental capacity and specify the date and subject matter of each 
testimony.
    Subcommittee on Technology, Information Policy, Intergovernmental 
Relations and the Census, House Committee on Government Reform, July 
21, 2004, ``The role of the Chief Information Officer in the Federal 
Government.''
    18. Given the current mission, major programs, and major 
operational objectives of the department/agency to which you have been 
nominated, what in your background or employment experience do you 
believe affirmatively qualifies you for appointment to the position for 
which you have been nominated, and why do you wish to serve in that 
position?
    If confirmed, my government background will serve me well. I gained 
valuable program evaluation experience at the United States General 
Accounting Office (now Government Accountability Office) and program 
review and policy experience as a staff member for the Subcommittee on 
the Oversight of Government Management of the Senate Committee on 
Governmental Affairs. Each of these roles exposed me to best practices 
in capital planning and investment control for technology programs and 
prepared me for my work at the Defense Department. At DoD, I 
implemented legal and regulatory requirements in a very large and 
complex organization, with a variety of competing stakeholders (similar 
to the situation that, if confirmed, I would expect to encounter at the 
Department of Transportation).
    Additionally, as a former board member and chairman of the 
Innovative Technology Authority of Virginia, I have been exposed to a 
number of applied research programs in a variety of areas, including 
transportation. I understand the need to coordinate research, while 
transferring and commercializing technology so that the benefits of our 
investment can be enjoyed by the public. As a board member and chairman 
of the Technology Committee of the Armed Forces Communications and 
Electronics Association, I was exposed to a number of innovative and 
cutting edge technologies that can and are being applied to our 
Nation's armed forces.
    I wish to serve in the Administration because I deeply believe that 
my prior service and background provides me with a unique perspective 
of the challenges facing RITA. If confirmed, I will be able to make 
substantial and long lasting contributions to the operations of the 
agency.
    19. What do you believe are your responsibilities, if confirmed, to 
ensure that the department/agency has proper management and accounting 
controls, and what experience do you have in managing a large 
organization?
    If confirmed as RITA Administrator, I will be charged with ensuring 
that the agency has proper management and accounting controls in place 
and that a high degree of transparency and visibility is maintained.
    I will also work closely with the appropriate Department officials 
to ensure regular operational and financial oversight and reporting 
mechanisms are in place. My experience on Capitol Hill allowed me to 
work on legislation specifically designed to apply capital planning, 
investment control and portfolio management and reporting to the 
Federal Government's investments in technology. I believe these same 
principals can be applied to the Department of Transportation's 
portfolio of research programs.
    As Deputy CIO at the Department of Defense it was my responsibility 
to establish controls and oversight over the Department's $50 billion 
portfolio of IT investments--many that we managed by the individual 
services much in the same way many research programs are managed by the 
individual modal administrations within the Department of 
Transportation. Given my background, I fully understand and appreciate 
the need for not just management and accounting controls but visibility 
into the organization down to the transaction level. My most recent 
private sector experience and past government experience including 
managing one of the largest technology focused oversight organizations 
in the Federal Government allows me to bring a unique perspective and 
experience set to this role.
    20. What do you believe to be the top three challenges facing the 
department/agency, and why?
    I believe the top three challenges facing the department/agency 
are:

        1. Coordination of the research activities across the 
        Department of Transportation, including elimination of 
        duplicative efforts. The Department annually spends more than 
        $1 billion on basic and applied research.

        Research coordination is a challenge because research dollars 
        within the Department have historically been managed and 
        controlled by the various modal administrations. As a new mode. 
        RITA must be sensitive to history and needs of the other modes 
        while exercising its statutory responsibility to ensure that 
        these dollars yield maximum measurable returns and benefits to 
        the taxpayer. In order to achieve efficient coordination, I 
        believe it is important to bring stakeholders, both inside and 
        outside of the Department, to the table as partners. This 
        relationship-building has already begun, and RITA is well-
        positioned to ensure that the Department's research investment 
        is coordinated, mission focused and directed in a manner that 
        is relevant, visible, and produces measurable results.

        2. Establishing RITA's authority, within the Department of 
        Transportation, as the global leader in the development of 
        transportation technology and ensuring that such technology is 
        systematically and rapidly commercialized, transferred, or 
        otherwise made available to operators and citizens.

        There is a significant amount of transportation-related 
        research and innovation taking place within the Department of 
        Transportation, University Transportation Centers, and other 
        publicly funded organizations. Combined with the significant 
        investment that is also occurring within other organizations, 
        RITA has an opportunity to identify and share research and 
        technological advances that can be timely and effectively 
        deployed to help us better anticipate and address our future 
        transportation needs. If confirmed, I intend to work to ensure 
        that RITA continues along the path to becoming the centralized 
        knowledge repository for these activities to better share 
        information among the modes and stakeholders, eliminate 
        redundant efforts, as well as to ensure smart, highly leveraged 
        Federal Government investment in future technology.

        3. Leverage existing and developing technologies across 
        multiple modes.

        There are many existing and developing technologies that are 
        directed for use in one mode but often have applicability 
        across multiple modes. For example, collision avoidance 
        technology that is developed for the airline industry may also 
        be applied with some modification to other modes such as 
        maritime or highways. Anti-fatigue efforts may also be applied 
        across modes. If confirmed, I would make it a priority to 
        ensure that RITA will look for opportunities to leverage 
        existing and developing technologies and innovations across all 
        transportation modes.
                   b. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers. Please include information related to retirement 
accounts.
    I have a deferred compensation agreement with SI International that 
has approximately $61,000 remaining that will be distributed in three 
future disbursements. These disbursements are scheduled to occur at the 
beginning of June each year.
    If confirmed, I have agreed to resign my position from Procentrix 
and divest my financial interest with the company.
    My wife works for Microsoft Corporation and I anticipate recusing 
myself from any dealings with Microsoft Corporation.
    There are no pension or retirement accounts that are in the control 
of any company, however, I have a 401(k) plan that remains under an SI 
International managed custodian.
    2. Do you have any commitments or agreements, formal or informal, 
to maintain employment, affiliation, or practice with any business, 
association or other organization during your appointment? If so, 
please explain: No.
    3. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated: Please refer to the 
Deputy General Counsel's opinion letter.
    4. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated.
    There are three potential conflicts that could arise. The first 
involves SI International, because I still receive deferred 
compensation from a program that is sponsored by them. Under the terms 
of the program if SI International were to become insolvent I would no 
longer receive distributions under the program and would be treated as 
an unsecured creditor. Second, my position with Procentrix could be 
seen as a potential conflict, although I intend to be fully divested 
from ownership in Procentrix upon confirmation and will also resign as 
Chairman and CEO at that time. Third, there is a potential conflict of 
interest with Microsoft, my wife's employer. She receives compensation 
from the company and incentive compensation directly related to the 
company's performance in the U.S. Federal marketplace. I intend to 
recuse myself from any dealings with RITA and any of these entities.
    5. Describe any activity during the past 10 years in which you have 
been engaged for the purpose of directly or indirectly influencing the 
passage, defeat, or modification of any legislation or affecting the 
administration and execution of law or public policy: None.
    6. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items: Please refer to the Deputy General Counsel's Opinion letter.
                            c. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics 
by, or been the subject of a complaint to any court, administrative 
agency, professional association, disciplinary committee, or other 
professional group? If so, please explain. No.
    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, State, or other law enforcement authority of any Federal, 
State, county, or municipal entity, other than for a minor traffic 
offense? If so, please explain. No.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in an administrative agency proceeding or 
civil litigation? If so, please explain. No.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, please explain.
    Yes. In 1984, during graduate school I was cited for a noise 
violation. I paid a small fine and court costs.
    5. Have you ever been accused, formally or informally, of sexual 
harassment or discrimination on the basis of sex, race, religion, or 
any other basis? If so, please explain. No.
    6. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination: None.
                     d. relationship with committee
    1. Will you ensure that your department/agency complies with 
deadlines for information set by Congressional committees? Yes.
    2. Will you ensure that your department/agency does whatever it can 
to protect Congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Yes.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.
                                 ______
                                 
                    resume of paul richard brubaker
Experience

    Chairman and Chief Executive Officer, Procentrix, Inc., 2006 to 
present.

        Founded innovative functional and technical consulting 
        organization.

                Created organization focused on developing and 
                deploying functional and technical expertise to assist 
                organizations to align people, processes and 
                technologies to achieve dramatic and measurable 
                improvements in mission performance.

                Built firm of seven employees and $100K in monthly 
                revenue serving four clients and named as one of 
                Federal Computer Week's Top Ten Organizations to Watch 
                for 2006 in 6 months.

                Built standard and repeatable delivery methodology for 
                a variety of management processes including program 
                management, capital planning and investment control and 
                earned value management using commercial off the shelf 
                technologies.

    Executive Vice President, Chief Marketing Officer, SI 
International, 2003 to 2006.

        Created a best in class organization by aligning people, 
        resources and processes to achieve organizational growth goals.

                Responsible for all marketing, sales, communications 
                and investor relations for a top 50 information 
                technology firm.

                Planned and executed detailed growth plan that 
                succeeded in growing the firm's revenues from $160M to 
                $400M.

                Built best of class processes, capabilities and tools 
                that will enable scaling marketing and sales activity 
                to support a $1B in annual revenue.

    Founding Partner, ICG Government, 2002 to 2003.

        Developed a small firm that provided educational programs to 
        improve performance of contractors in responding to government 
        requirements.

        Created a series of networking events designed to increase 
        communication between senior level government officials and the 
        technology industry.

        Grew the firm to 12 retained clients and more than $150K in 
        monthly revenue within the first year of operations.

    Chief Executive Officer, Aquilent Inc., 2001 to 2002.

        Hired by Commerce One to manage its government services 
        operation and quickly organized a management buyout of this 125 
        person professional services operation.

        Led all aspects of the management buy out including securing 
        investment capital and banking relationships while minimizing 
        disruption to clients and staff.

        Successfully managed the transition to the new entity and 
        successfully aligned organization to new mission and goals 
        post-acquisition.

    Deputy Assistant Secretary of Defense (Deputy Chief Information 
Officer) 2000 to 2001; and Principal Director, Office of the Deputy 
Assistant Secretary of Defense (Deputy Chief Information Officer) 1999 
to 2000, United States Department of Defense, 1999 to 2001.

        Aligned 120 person organization with expanded mission 
        requirements including the DOD response to the year 2000 date 
        change for mission critical systems.

        Established a number of critical operational processes 
        including governance, capital planning and investment control, 
        portfolio management and policy development for Department-wide 
        IT initiatives.

        Supervised the development of Department-wide architecture 
        standards and chairing numerous investment, policy and 
        oversight boards.

        Responsible for implementation of Departmental responsibilities 
        under the Clinger-Cohen Act and other related laws and 
        regulations.

    Vice President of Strategic Programs, Litton PRC McLean, 1997 to 
1999.

        Responsible for the redesign of the marketing and communication 
        activities of the company in response to the changing Federal 
        marketplace resulting from changes in law, policy and 
        government regulation.

        Advised the President on reallocation of company resources and 
        organizational alignment to compete in the changing market to 
        include: bidding on contract vehicles, standing up tactical 
        sales activity and engaging in direct communication with 
        buyers.

    Deputy Staff Director, 1994 to 1996; Republican Staff Director, 
1992 to 1994; Chief Investigator, 1991 to 1992; Senate Subcommittee on 
Oversight of Government Management, U.S. Senate, 1991 to 1996.

        Responsible for planning and executing a variety of government 
        oversight activities on behalf of the Subcommittee Chairman 
        then-Senator William S. Cohen (R-Maine).

        Responsible for leading all technology and acquisition-related 
        oversight and legislation for the Subcommittee including the 
        publication of the Computer Chaos report issued in 1994 and the 
        Information Technology Management Reform Act of 1996 (now known 
        as the Clinger-Cohen Act).

    Evaluator, United States General Accounting Office, 1986 to 1991.

        Managed a number of cost, schedule and performance audits of 
        Federal programs including those at the Departments of Veterans 
        Affairs, Education, Energy and Defense including major weapons 
        systems acquisition.

        Selected for a 1-year assignment to the Senate Committee on 
        Appropriations where assignments included budget analysis on 
        the information technology spending of several departments 
        including the Departments of Veterans Affairs and Housing and 
        Urban Development and the National Aeronautics and Space 
        Administration.

Education

    Youngstown State University, Youngstown, Ohio, 1983.

        Bachelor of Arts Degree.

    Kent State University, Kent, Ohio, 1985.

        Master of Public Administration.

Activities

    Chairman, Virginia Innovative Technology Authority (2001 to 2003); 
board member (1998 to 2003). Appointed by Governor Jim Gilmore (R-
Virginia).

    Chairman, Technical Committee, Armed Forces Communications and 
Electronics Association (AFCEA) (2003 to 2006); Board Member (1997 to 
2006).

    Principal, Council for Excellence in Government (1996 to present).

    President, AFCEA DC Chapter (2005 to 2006).

    Information Technology Association of America (1996 to present).

    Government Electronic Industries Association Board of Directors 
(1996 to 1999).

    Associate and Fellow, the Churchill Centre (2003 to present).

    Republican Nominee for Virginia State Senate (1995).

Awards

    Government Executive of the Year, Association for Federal 
Information Resource Managers (AFFIRM) (2001).

    Department of Defense Distinguished Public Service Medal (with palm 
device) (2001).

    Federal Computer Week Federal 100 award (1996 and 2001).

    The Chairman. I thank you very much, Mr. Brubaker.
    Our next nominee will be the Chief Financial Officer of the 
National Aeronautics and Space Administration, Mr. Ronald 
Spoehel.
    Mr. Spoehel?

 STATEMENT OF RONALD R. SPOEHEL, NOMINEE TO BE CHIEF FINANCIAL 
     OFFICER, NATIONAL AERONAUTICS AND SPACE ADMINISTRATION

    Mr. Spoehel. Mr. Chairman and Members of the Committee, 
thank you for the opportunity to appear before you today as you 
consider my nomination for the position of Chief Financial 
Officer of NASA. It is an honor to be here, and I am privileged 
to have been nominated by the President to this post.
    I also appreciate the time the Members of this Committee 
have already taken to meet with me and consider my nomination. 
If confirmed, I look forward to working with Members of this 
Committee in addressing the challenges of maintaining America's 
preeminent position in pioneering space exploration and 
aeronautics, while also undertaking vigorous scientific 
research programs advancing our knowledge and understanding of 
our own planet.
    If confirmed as NASA's CFO, I am committed to working with 
Administrator Griffin, NASA's dedicated professionals, 
Congress, the White House, the private sector, and other key 
constituencies, to address the challenges of meeting the 
President's Vision for Space Exploration and the Nation's 
objectives for NASA while undertaking the mission in the most 
effective and efficient manner possible, especially during a 
time when there are many other competing demands for our 
Nation's resources.
    The position of Chief Financial Officer of any organization 
carries a tremendous responsibility. It is the pivotal 
interface where budget, accountability, and sound fiscal 
management all reside. Over my career, I am fortunate to have 
gained broad financial management and leadership experience as 
an officer and an executive for more than 25 years, with a 
variety of complex, multidivisional, geographically dispersed 
companies, with operations serving the government and the space 
community.
    I am familiar with many of the challenges of providing 
leadership within organizations of global size, complexity, and 
scale. The challenges ahead for NASA are many, and, if 
confirmed, I would make it a priority to meet with the 
leadership of NASA, as well as each of the constituencies with 
which NASA's CFO organization interfaces, to understand the key 
challenges ahead for NASA, and to work with my staff so these 
receive appropriate attention and resources to ensure NASA's 
success in meeting those challenges.
    I believe public service is a duty, a privilege, and an 
honor. Both of my late parents had served in the Federal 
Government, and I had an abiding interest in space and 
aeronautics instilled as my father pursued his aerospace 
engineering career, and I had an opportunity to personally 
witness many of the pioneering events in the industry. I'm very 
enthusiastic about the opportunity, if confirmed, to address 
the challenges of the position, and to bring my financial and 
leadership experience into the service of NASA and the Federal 
Government.
    Mr. Chairman, Members of the Committee, I thank you, again, 
for your consideration of my nomination, and I look forward to 
answering any questions you might have.
    In deference to your time and the time of this Committee, I 
ask that the remainder of my prepared statement, that was 
presented to the Committee, be presented in its entirety and 
entered into the record.
    The Chairman. Without objection, so ordered.
    [The prepared statement and biographical information of Mr. 
Spoehel follow:]

Prepared Statement of Ronald R. Spoehel, Nominee to be Chief Financial 
         Officer, National Aeronautics and Space Administration
    Mr. Chairman, Vice Chairman, and Members of the Committee, thank 
you for the opportunity to appear before you today as you consider my 
nomination for the position of Chief Financial Officer of NASA. It is 
an honor to be here and I am privileged to have been nominated by the 
President to this post. I also appreciate the time Members of this 
Committee already have taken to meet with me and consider my 
nomination. If confirmed, I look forward to working with the Members of 
this Committee in addressing the challenges of maintaining America's 
preeminent position in pioneering space exploration and aeronautics, 
while also undertaking vigorous scientific research programs advancing 
our knowledge and understanding of our own planet.
    If confirmed as the NASA Chief Financial Officer, I am committed to 
working with Administrator Griffin, NASA's dedicated professionals, 
Congress, the White House, the private sector, and other key 
constituencies to address the challenges of meeting the President's 
Vision for Space Exploration and the Nation's objectives for NASA, 
while undertaking the mission in the most effective and efficient 
manner possible, especially during a time when there are other 
competing demands for our Nation's resources.
    The position of Chief Financial Officer of any organization carries 
a tremendous responsibility as the pivotal interface where budget, 
accountability, and sound fiscal management all reside. It will be my 
goal, if confirmed, to build upon the progress that has already been 
made and continue to improve the management, performance, and results 
for the Agency.
    Over my career, I am fortunate to have gained broad financial 
management and leadership experience as an officer and executive for 
more than 25 years with a variety of complex, multi-divisional, 
geographically dispersed companies with operations serving the 
government and the space community. These positions include having 
served as Executive Vice President, Chief Financial Officer, and a 
member of the Board of Directors of ManTech International, a NASDAQ-
listed company which, for example, I led through the intensive process 
of implementing the internal controls, accounting and financial 
reporting systems necessary for Sarbanes-Oxley compliance. I have also 
served in general management as an executive officer of other global 
technology companies with complex multi-divisional operations, 
including large, established companies such as NYSE-traded Harris 
Corporation.
    With experience as an executive and officer of large, complex, 
multi-divisional, and geographically dispersed public and private 
companies, I am familiar with many of the challenges of providing 
leadership within organizations of global size, complexity, and scale. 
If I am confirmed, I would bring to NASA broad experience within 
finance and general management, as well as particular experience in 
coordinating successful audits for large multinational companies and in 
implementing shared service centers, operational efficiencies, enhanced 
reporting and analysis, and internal control systems, similar to many 
of the requirements under the Chief Financial Officers (CFO) Act, 
Federal Financial Management Improvement Act (FFFMIA), the Federal 
Managers Financial Integrity Act (FMFIA), the Improper Payments 
Information Act (IPIA), and the Government Performance Results Act 
(GPRA).
    The challenges ahead for NASA are many, and, if confirmed, I would 
make it a priority to meet with the leadership of NASA and with my 
staff, as well as each of the constituencies with which NASA's CFO 
organization interfaces, to understand the current key challenges which 
NASA and its CFO organization face and to work with my staff so that 
these receive the appropriate attention and resources to ensure Agency 
success in meeting these challenges. In particular, I would familiarize 
myself with the existing NASA plan to address its financial management 
challenges and assure there is a sound plan for addressing any 
deficiencies. I would work with my staff to refine and implement plans 
as may be appropriate and required to meet the objectives for such 
plan. I would also make it a priority to work with my staff to support 
Agency efforts to achieve unqualified audit opinions, maintain 
appropriate financial systems, implement strong internal control 
systems, and be a first-class management organization.
    I believe public service is a duty, a privilege and an honor. Both 
of my late parents had served in the Federal Government and I had an 
abiding interest in space and aeronautics instilled as my father 
pursued his aerospace engineering career and I had the opportunity to 
witness many pioneering events in the industry. I am enthusiastic about 
the opportunity, if confirmed, to address the challenges of the 
position and to bring my financial and leadership experience into the 
service of NASA and the Federal Government.
    Mr. Chairman and Members of the Committee, I thank you, again, for 
your consideration of my nomination and I look forward to answering any 
questions you may have.
                                 ______
                                 
             a. biographical information and qualifications
    1. Name (Include any former names or nicknames used): Ronald R. 
Spoehel.
    2. Position to which nominated: Chief Financial Officer, National 
Aeronautics and Space Administration.
    3. Date of Nomination: May 16, 2007.
    4. Address (List current place of residence and office addresses):

        Residence: Information not released to the public.

        Office: Not Applicable.

    5. Date and Place of Birth: October 28, 1957; Los Angeles, 
California.
    6. Provide the name, position, and place of employment for your 
spouse (if married) and the names and ages of your children (including 
stepchildren and children by a previous marriage).

        Wife: Deborah B. Spoehel, Homemaker.
        Children: Elizabeth, 11; James, 8.

    7. List all college and graduate degrees. Provide year and school 
attended.

      M.B.A.                                  1980               The Wharton School, University of Pennsylvania
      M.S. Engineering                        1980     The Moore School of Electrical Engineering, University of
                                                                                                   Pennsylvania
      B.S. Economics                          1979               The Wharton School, University of Pennsylvania


    8. List all post-undergraduate employment, and highlight all 
management-level jobs held and any non-managerial jobs that relate to 
the position for which you are nominated.

        Executive Vice President, Chief Financial Officer and Director, 
        ICx Technologies, Inc.

        Executive Vice President, Chief Financial Officer and Director, 
        ManTech International Corporation.

        Chairman, Alpine Partners, LLC.

        Chief Executive Officer and Director, Optinel Systems, Inc.

        Vice President--Corporate Development, Harris Corporation.

        Senior Vice President, ICF Kaiser International Inc.

        Vice President, Investment Banking, Lehman Brothers.

        Vice President, Bank of American NT&SA.

        Business/Program Analyst, Hughes Aircraft Company.

    9. Attach a copy of your resume.
    Mr. Spoehel is a private investor. Previously, he served as 
Executive Vice President, Chief Financial Officer and Director of ICx 
Technologies, an advanced technologies security solutions company. 
Prior to joining ICx in 2005, Mr. Spoehel was Executive Vice President, 
Chief Financial Officer and Director of ManTech International 
Corporation, a NASDAQ-listed government technology solutions company. 
Prior to joining ManTech in 2003, he served as Chairman of Alpine 
Partners, LLC, a private investment advisory firm he founded in 2002. 
From 2000 to 2002, he served as Chief Executive Officer and Director of 
Optinel Systems, Inc., an optical communications equipment company. 
From 1994 to 2000. Mr. Spoehel served as Vice President--Corporate 
Development of Harris Corporation, a NYSE-listed Fortune 500 global 
communications equipment and defense electronics company. From 1990 to 
1994, he served as Senior Vice President of ICF Kaiser International 
Inc., a NYSE-listed company with global operations, in a variety of 
general management roles. Prior to 1990, he served as Vice President, 
Investment Banking of Lehman Brothers and as Vice President of Bank of 
America.
    Mr. Spoehel graduated magna cum laude from the Wharton School, 
University of Pennsylvania. He also received his MBA from Wharton and 
MS Engineering from the Moore School of Electrical Engineering, 
University of Pennsylvania. He has served on the Board of Directors of 
the Professional Services Council and the Advisory Council for the 
Wharton and Engineering Schools at the University of Pennsylvania. Mr. 
Spoehel has also served on the Boards of private companies both in the 
U.S. and in Europe.
    10. List any advisory, consultative, honorary, or other part-time 
service or positions with Federal, State, or local governments, other 
than those listed above, within the last 5 years: None.
    11 List all positions held as an officer, director, trustee, 
partner, proprietor, agent, representative, or consultant of any 
corporation, company, firm, partnership, or other business, enterprise, 
educational, or other institution within the last 5 years.

        Executive Vice President, Chief Financial Officer and Director, 
        ICx Technologies, Inc.

        Executive Vice President, Chief Financial Officer and Director, 
        ManTech International Corporation.

        Director, Professional Services Council.

        Chairman, Alpine Partners, LLC.

        Member, University of Pennsylvania, Engineering and Wharton 
        Schools EMTM Advisory Council.

        Personal Representative, Estate of Edwin H. Spoehel.

        Co-Trustee, Geraldine Spoehel Family Trust.

        Trustee, Ronald R. Spoehel Revocable Trust.

        Trustee, Deborah B. Spoehel Children's Trust.

    12. Please list each membership you have had during the past 10 
years or currently hold with any civic, social, charitable, 
educational, political, professional, fraternal, benevolent or 
religious organization, private club, or other membership organization. 
Include dates of membership and any positions you have held with any 
organization. Please note whether any such club or organization 
restricts membership on the basis of sex, race, color, religion, 
national origin, age, or handicap.


                Organization                  Position        Dates

Current Memberships:
Economic Club of Washington, D.C.               Member     2004-Present
Financial Executives Institute                  Member     2003-Present
Metropolitan Club of Washington, D.C.           Member     1995-Present
National Association of Corporate Directors     Member     2004-Present
Westwood Country Club, Vienna, Virginia         Member     2005-Present
Wharton Club of Washington, D.C.                Member     2003-Present

Prior Memberships:
Armed Forces Communications and Electronics     Member        2003-2005
 Association
Association for Corporate Growth                Member        2005-2006
Eau Gallie Yacht Club                           Member        1995-2000
Potomac Officers Club                           Member        2004-2006
Professional Services Council                 Director        2004-2005
University of Pennsylvania, Engineering and     Member        1998-2003
 Wharton Schools EMTM Advisory Council


    None of the above organizations restricts membership on the basis 
of sex, race, color, religion, national origin, age or handicap.
    13. Have you ever been a candidate for and/or held a public office 
(elected, non-elected, or appointed)? If so, indicate whether any 
campaign has any outstanding debt, the amount. and whether you are 
personally liable for that debt: No.
    14. Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past 10 years. Also list all offices you 
have held with, and services rendered to, a state or national political 
party or election committee during the same period.

        ICx Technologies Inc. PAC, 2006, $1,270.

        ManTech International Corporation PAC, 2004, $2,000.

        Help America's Leaders PAC, 2004, $2,000.

        Rick Renzi for Congress, 2004, $500.

        ManTech International Corporation PAC, 2003, $2,000.

    No offices with any state or national political party or election 
committee have been held during the past 10 years.
    15. List all scholarships, fellowships, honorary degrees, honorary 
society memberships, military medals, and any other special recognition 
for outstanding service or achievements.

        Hughes Aircraft Company Scholarship, 1979.

        Junior Achievement National Award Scholarship (competitive), 
        1975.

        Commendation from The Senate, California Legislature, July 1, 
        1975.

    16. Please list each book, article, column, or publication you have 
authored, individually or with others. Also list any speeches that you 
have given on topics relevant to the position for which you have been 
nominated. Do not attach copies of these publications unless otherwise 
instructed. None.
    17. Please identify each instance in which you have testified 
orally or in writing before Congress in a governmental or non-
governmental capacity and specify the date and subject matter of each 
testimony: None.
    18. Given the current mission. major programs, and major 
operational objectives of the department/agency to which you have been 
nominated, what in your background or employment experience do you 
believe affirmatively qualifies you for appointment to the position for 
which you have been nominated, and why do you wish to serve in that 
position?
    Over my career, I have obtained broad financial management and 
leadership experience as an officer and executive for more than 25 
years with a variety of complex, multi-divisional, geographically 
dispersed companies with operations serving the government and the 
space community. These positions include having served as Executive 
Vice President, Chief Financial Officer, and a member of the Board of 
Directors of ManTech International, a NASDAQ-listed company which, for 
example, I led through the intensive process of implementing the 
internal controls, accounting and financial reporting systems necessary 
for Sarbanes-Oxley compliance. I have also served in general management 
as an executive officer of other global technology companies with 
complex multi-divisional operations, including large, established 
companies such as NYSE-traded Harris Corporation.
    I believe public service is a duty, a privilege and an honor. Both 
of my late parents had served in the Federal Government and I had an 
abiding interest in space and aeronautics instilled as my father 
pursued his aerospace engineering career and I had the opportunity to 
witness many pioneering events in the industry. I am enthusiastic about 
the opportunity, if confirmed, to address the challenges of the 
position and to bring my financial and leadership experience into the 
service of NASA and the Federal Government.
    19. What do you believe are your responsibilities, if confirmed, to 
ensure that the department/agency has proper management and accounting 
controls, and what experience do you have in managing a large 
organization?
    The position of Chief Financial Officer of any organization or 
Agency carries a tremendous responsibility as the pivotal interface 
where budget, accountability, and sound fiscal management all reside. 
It will be my goal, if confirmed, to build upon the progress that has 
already been made and continue to improve the management, performance, 
and results for the Agency.
    If confirmed as NASA Chief Financial Officer, I will familiarize 
myself with the existing NASA plan to address its financial management 
challenges and assure there is a sound plan for addressing any 
deficiencies. I would work with my staff to refine and implement plans 
as may be appropriate and required to meet the objectives for such 
plan. I would also make it a priority to work with my staff to support 
Agency efforts to achieve unqualified audit opinions, maintain 
appropriate financial systems, have strong internal control systems, 
and be a first-class management organization.
    With experience as an executive and officer of large, complex, 
multi-divisional and geographically dispersed public and private 
companies, I am familiar with many of the challenges of providing 
leadership within organizations of global size, complexity and scale. 
If I am confirmed, I would bring to the NASA Chief Financial Officer 
role broad experience both within finance and general management, as 
well as in coordinating the successful audits for large multinational 
companies and in implementing shared service centers, operational 
efficiencies, enhanced reporting and analysis, and internal control 
systems to meet Sarbanes-Oxley and other financial control 
requirements. I would make it a priority to bring the clarity of 
purpose, steadiness of execution, and ability to work with others that 
are required for leadership in building and growing a strong, diverse 
organization.
    20. What do you believe to be the top three challenges facing the 
department/agency, and why?
    Without an opportunity to fully assess the situation, I cannot 
offer an authoritative opinion at this time. However, if confirmed, I 
would meet with the leadership of NASA and with my staff as well as 
each of the constituencies with which NASA's CFO organization 
interfaces to develop a view of the current key challenges which NASA 
and its CFO organization face and work with my staffs so that these 
receive the appropriate attention and resources to ensure Agency 
success in meeting these challenges.
                   b. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers. Please include information related to retirement 
accounts.
    Continued participation with Harris Corporation Supplemental 
Executive Retirement Plan and ManTech International Corporation 401k 
Plan, and passive investment with D&S Group, LLC, a limited liability 
company of which I own 50 percent of the equity.
    2. Do you have any commitments or agreements, formal or informal, 
to maintain employment, affiliation, or practice with any business, 
association or other organization during your appointment? If so, 
please explain.
    While an estate or trust may not be considered a business 
association or organization. I note to ensure thorough disclosure that 
I am currently personal representative (executor) of my father's estate 
in an unpaid capacity and I will not receive compensation for such 
services. I also am trustee for the Ronald R. Spoehel Revocable Trust, 
trustee for the Geraldine Spoehel family trust, and trustee of a trust 
that has been established for my children, each in an unpaid capacity 
and I will not receive compensation for such services.
    I presently intend to maintain my affiliation with D&S Group, LLC 
solely as an owner and passive investor as referred to above in item 
B.1.
    3. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.
    Continued ownership of common stock of ManTech International 
Corporation. I also have been made aware that the following companies 
in which I have a financial interest do business with NASA, although it 
is not anticipated that my official duties will include matters that 
will involve these companies: Cisco Systems, Inc., Walt Disney Co., 
Exxon Mobile Corp., Harris Corporation, Hewlett-Packard Co., Intel 
Corp., Motorola, Inc., Staples, Inc., Texas Instruments, Inc., and 
United Technologies, Inc. If a matter including one of these companies 
does arise, however, I would seek advice from the NASA General Counsel 
or his designated NASA ethics official about ways in which to avoid a 
conflict of interest.
    4. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated.
    Ownership of common stock of ManTech International Corporation and 
participation in the Harris Corporation Senior Executive Retirement 
Plan. Executive Vice President, Chief Financial Officer and Director, 
ManTech International Corporation.
    5. Describe any activity during the past 10 years in which you have 
been engaged for the purpose of directly or indirectly influencing the 
passage, defeat, or modification of any legislation or affecting the 
administration and execution of law or public policy: None.
    6. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items.
    If confirmed as NASA Chief Financial Officer, as required by 18 
U.S.C.  208(a), I will not participate personally and substantially in 
any particular matter that has a direct and predictable effect on my 
financial interests or those of any other person whose interests are 
imputed to me, unless I first obtain a written waiver, pursuant to  
208(b)(1), or qualify for a regulatory exemption, pursuant to  
208(b)(2).
    I understand that my stock in ManTech International Corporation 
presents a potential conflict of interest under  208(a), although it 
has been determined that it is not necessary at this time for me to 
divest this stock. I will not participate personally and substantially 
in any particular matter that has a direct and predictable effect on 
the financial interests of ManTech International Corporation, unless I 
first obtain a written waiver or qualify for a regulatory exemption.
    In addition, if confirmed, for the duration of my government 
service: (i) I will not provide any services or management to D&S 
Group, LLC including voting or any other decision-making activity and 
instead, I will become solely a passive investor; (ii) I will not 
communicate any instruction, preference or recommendation regarding the 
investment decisions of D&S Group, LLC; (iii) I will not participate 
personally and substantially in any particular matter that has a direct 
and predictable effect on the financial interests of D&S Group, LLC, 
unless I first obtain a written waiver; (iv) I understand it will be my 
responsibility to monitor the holdings of D&S Group, LLC in order to 
determine whether it has acquired any financial interest that poses a 
potential conflict with the duties of my position and in the event any 
such acquisition occurs, I will notify and consult with the NASA 
General Counsel or his designated NASA ethics official about ways in 
which to avoid a conflict of interest; and, (v) I will not communicate 
with any investor or prospective investor about D&S Group, LLC.
    I understand that the U.S. Office of Government Ethics has issued 
certain regulatory exemptions to 18 U.S.C.  208 that depend on the 
aggregate value of financial interests affected by a particular matter. 
I understand that the de minimis thresholds for these exemptions vary 
depending upon whether a particular matter involves specific panics or 
whether it is a particular matter of general applicability. While I 
understand that these exemptions may, in appropriate cases, permit me 
to participate in matters affecting entities in which I have financial 
interests, I will be aware of the specific limitations of these 
exemptions and remain alert to the potential that my financial 
interests may increase in value beyond these de minimis thresholds. In 
the event there is a need for my participation in matters affecting 
entities in which I have such financial interests, I will work with a 
NASA ethics official to take appropriate steps to prevent any conflict.
                            c. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics 
by, or been the subject of a complaint to any court, administrative 
agency, professional association, disciplinary committee, or other 
professional group? If so, please explain. No.
    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, State, or other law enforcement authority of any Federal, 
State, county, or municipal entity, other than for a minor traffic 
offense? If so, please explain. No.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in an administrative agency proceeding or 
civil litigation? If so, please explain.
    While an officer of Bank of America. Lehman, ICF Kaiser, Harris 
Corporation. and ManTech International Corporation, there may have been 
proceedings or litigation during my affiliation with those 
organizations; however, I was not personally named or involved in any 
proceedings or litigation.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, please explain. No.
    5. Have you ever been accused, formally or informally, of sexual 
harassment or discrimination on the basis of sex, race, religion, or 
any other basis? If so, please explain. No.
    6. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination: None.
                     d. relationship with committee
    1. Will you ensure that your department/agency complies with 
deadlines for information set by Congressional committees? Yes.
    2. Will you ensure that your department/agency does whatever it can 
to protect Congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Yes.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.

    The Chairman. And I thank you very much, Mr. Spoehel.
    Rear Admiral William Sutton, United States Navy (Retired), 
nominee for the Assistant Secretaryship for Manufacturing and 
Services, United States Department of Commerce.
    Welcome, sir, good to see you again.

          STATEMENT OF REAR ADMIRAL WILLIAM G. SUTTON,

         USN (RET.), NOMINEE TO BE ASSISTANT SECRETARY

                FOR MANUFACTURING AND SERVICES,

                  U.S. DEPARTMENT OF COMMERCE

    Admiral Sutton. Yes, sir, Senator, good to see you, too.
    Mr. Chairman, distinguished Members of the Committee, it's 
truly an honor to appear before you today as the nominee for 
the position of Assistant Secretary of Commerce for 
Manufacturing and Services within the International Trade 
Administration.
    I want to thank President Bush and Secretary Gutierrez for 
expressing their confidence in me through this nomination. And, 
if confirmed, it will be an honor to undertake this challenge.
    First, I would also like to introduce some members of my 
family who are here with me today.
    The Chairman. Oh, please do. I'm sorry.
    Admiral Sutton. My wife, Claudia, who has had the toughest 
job in the world, which is being a Navy wife, her sister, 
Cynthia, and our two lovely nieces, Meredith and Caroline.
    [Applause.]
    Admiral Sutton. Also, I'd like to recognize my fellow 
nominees here on the panel. And, if confirmed, I look forward 
to joining government service alongside them once again.
    Over the last several weeks, I have enjoyed meeting with 
many of you and your staff members, and have noted, and do 
appreciate, both your concerns and your words of encouragement. 
And, if confirmed, I look forward to continuing this dialogue 
and to working closely with the members of this Committee.
    I grew up in a small town in south Georgia, then spent the 
next 30 years as a naval officer, with almost 11 years either 
underway or forward-deployed. My schooling in ship design and 
construction, and Navy assignments in education and government 
affairs, led to my next career of over 5 years in the private 
sector representing a uniquely American manufacturing industry, 
both domestically and abroad. These experiences have provided 
firsthand knowledge and a deep appreciation for the challenges 
we face as globalization evolves.
    The trade association I was privileged to lead for the last 
5 years represented the manufacturers of over 90 percent of the 
air-conditioning and commercial refrigeration products made in 
the United States. During over 80 visits to plants of all 
shapes, sizes, and levels of sophistication, from mom-and-pop 
operations to large, highly productive global conglomerates, I 
saw one common thread: U.S. manufacturers can compete 
successfully with anybody, given a level playing field.
    My association represented our manufacturers in the Federal 
and State regulatory processes. We developed performance 
standards and administered equipment certification programs. We 
were also involved daily in issues of market access, 
intellectual property rights, and tariffs. And our members were 
constantly wrestling with the increasing costs of manufacturing 
and growing global competition. So, as you can see, the 
industry I represented, and the issues it was facing, were 
microcosms of what is happening to U.S. industry.
    I also have come to understand that, with the recent 
advances in both technology and in manufacturing productivity, 
logistics, and financial sophistication, that manufacturing and 
services, their issues are now fully and inextricably linked 
and merged. As a result, my experience with this part of U.S. 
industry has given me a true appreciation of what the Office of 
Manufacturing and Services can be doing, in a broader sense. 
Every policy, regulation, or law should be made with an eye 
toward the U.S. worker and U.S. industry's competitiveness. Our 
market-driven economy, with its transparency and sense of fair 
play, should be the future of globalization. Our way of doing 
business should be our number-one export. I think that is one 
of the best ways for us to stay competitive as globalization 
evolves.
    Freedom of the seas facilitates trade, and our founding 
fathers understood this concept when they stated, ``We will 
maintain a navy.'' At the same time, market-access limitations, 
barriers, and unfair costs stifle fair competition. So, it's 
obvious that, during the evolution of globalization, there 
needs to be an advocate within our system to try and make sense 
of any particular U.S. industry's dilemma. We need to make sure 
that the proposed policies and regulations are fully vetted to 
prevent the always-present unintended consequence perhaps 
affecting another industry or another industry segment.
    While at my trade association, I saw the Office of 
Manufacturing and Services analyzing costs and providing data. 
I saw it maintaining an industry dialogue through the advisory 
committees and the councils and boards, such as the 
Manufacturing Council. And, while I wasn't directly involved, I 
understand the Travel and Tourism Board also works very closely 
with this Committee.
    The manufacturers and services-sector experts have been 
able to provide critical data to the other Federal agencies and 
to Congress, with an eye on competitiveness. So, when I was 
asked to take on this challenge, my first thoughts were, what 
could I possibly do? And how could I make a difference?
    If confirmed, I will focus the office on providing 
practical and actionable input to the regulatory and policy 
processes. With the evolution of globalization, I see U.S. 
global competitiveness needing to start right here at home. I 
will work toward decreasing the premium that U.S. employers pay 
to manufacture and operate here in the U.S. My goal will be to 
help develop and maintain an environment in which the smart 
business decision for any U.S. company will be to open or 
expand, right here.
    I will also look at how the services sector is integrated 
into our economy, and work to ensure it receives appropriate 
weight in the office's input to the policymakers.
    The voice of the U.S. manufacturing and services worker 
must be heard, and, if confirmed, I also hope to establish the 
Office of Manufacturing and Services as the go-to office for 
evaluating policy impacts on the domestic and global 
competitiveness of U.S. industry.
    It has a highly competent staff of industry and sector 
experts who can be brought to bear to aid Congress and the 
Federal agencies with the complex questions that are arising 
during the evolution of globalization.
    I truly believe it is honorable to be in government 
service, and, if confirmed, I hope to contribute to the 
competitiveness of all U.S. industry, which will equate to 
improving our quality of life, and will improve our prospects 
for the future.
    Thank you for this opportunity, and I'll be happy to answer 
your questions.
    [The biographical information of Admiral Sutton follows:]

                                 ______
                                 
             a. biographical information and qualifications
    1. Name (Include any former names or nicknames used):

        William Glenn Sutton.
        Nickname: Woody.

    2. Position to which nominated: Assistant Secretary for 
Manufacturing and Services, U.S. Department of Commerce.
    3. Date of Nomination: May 4, 2007.
    4. Address (List current place of residence and office addresses): 
Information not available to the public.
    5. Date and Place of Birth: July 5, 1948; Brunswick, Georgia.
    6. Provide the name, position, and place of employment for your 
spouse (if married) and the names and ages of your children (including 
stepchildren and children by a previous marriage).

        Claudia Mansfield Sutton (spouse), Associate Executive 
        Director, American Association of School Administrators (AASA), 
        Arlington, VA; No Children.

    7. List all college and graduate degrees. Provide year and school 
attended.

        Master of Science Degree in Naval Architecture and Marine 
        Engineering, Massachusetts Institute of Technology, Cambridge, 
        MA, June, 1971.

        Bachelor of Science Degree in Naval Engineering, United States 
        Naval Academy, Annapolis, MD, June 1970.

    8. List all post-undergraduate employment, and highlight all 
management-level jobs held and any non-managerial jobs that relate to 
the position for which you are nominated.

        Career Naval Officer, June 1970 to July 2000. See attached Navy 
        Biography.

        President, Air-Conditioning and Refrigeration Institute (ARI), 
        December 2001 to February 2007, representing the manufacturers 
        of commercial air-conditioning and refrigeration products. See 
        attached resume.

        Leadership and management roles throughout Navy career, and 
        standards development, certification program administration; 
        and legislative, regulatory and global trade advocacy while 
        running a major manufacturers' trade association relate to the 
        position.

    9. Attach a copy of your resume. Resume and Naval career biography 
attached.
    10. List any advisory, consultative, honorary, or other part-time 
service or positions with Federal, State, or local governments, other 
than those listed above, within the last 5 years: None.
    11. List all positions held as an officer, director, trustee, 
partner, proprietor, agent, representative, or consultant of any 
corporation, company, firm, partnership, or other business, enterprise, 
educational, or other institution within the last 5 years.

        President, Air-Conditioning and Refrigeration Institute (ARI), 
        Arlington, VA.

        Director, Clifford H. ``Ted'' Reese Scholarship Foundation, 
        Arlington, VA.

        Director, Air-Conditioning and Refrigeration Technology 
        Institute (ARTI), Arlington, VA.

        Director, North American Technician Excellence (NATE), 
        Arlington, VA.

        Director, American National Standards Institute (ANSI), 
        Washington, D.C.

        Director, National Association of Manufacturers Council of 
        Manufacturing Associations (NAM CMA), Washington, D.C.

        Secretary-Treasurer, Association Education and Business 
        Institute Inc. (AEBI), Arlington, VA.
    12. Please list each membership you have had during the past 10 
years or currently hold with any civic, social, charitable, 
educational, political, professional, fraternal, benevolent or 
religious organization, private club. or other membership organization. 
Include dates of membership and any positions you have held with any 
organization. Please note whether any such club or organization 
restricts membership on the basis of sex, race, color, religion, 
national origin, age, or handicap.

        USNA Alumni Association, Annapolis, MD, 1970 to present.

        MIT Alumni Association, Cambridge, MA, 1971 to present.

        U.S. Naval Institute. Annapolis, MD, 1978 to present.

        Surface Navy Association. Alexandria, VA, 1988 to present.

        Army Navy Country Club, Arlington, VA, 1989 to present.

        AARP, Washington, D.C., 2000 to present.

        Pearl Harbor Lodge, F&AM, Honolulu, HI, 1999 to present.

        Navy League of the United States, Arlington, VA, 2000 to 
        present.

        MOAA, Alexandria, VA, 2000 to present.

        The Army and Navy Club, Washington, D.C., 2002 to present.

        United States Naval Historical Foundation, Washington, D.C., 
        2006 to present.

    13. Have you ever been a candidate for and/or held a public office 
(elected, non-elected, or appointed)? If so, indicate whether any 
campaign has any outstanding debt, the amount, and whether you are 
personally liable for that debt: No.
    14. Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past 10 years. Also list all offices you 
have held with, and services rendered to, a state or national political 
party or election committee during the same period.

        American Society of Association Executives PAC 2005--$250, 
        2006--$250, 2007--$250.

    15. List all scholarships, fellowships, honorary degrees, honorary 
society memberships, military medals, and any other special recognition 
for outstanding service or achievements.

        Military Medals:

        Defense Superior Service Medal (DSSM).

        Legion of Merit (5 awards).

        Meritorious Service Medal (2 awards).

        Navy Commendation Medal.

        Navy Achievement Medal.

        Navy Unit Commendation Medal.

        Meritorious Unit Commendation (2 awards).

        Navy ``E'' (5 awards).

        Navy Expeditionary Medal.

         Armed Forces Expeditionary Medal.

         Armed Forces Service Medal.

        Southwest Asia Service Medal (2 awards).

        Sea Service Deployment Ribbon (3 awards).

        Kuwait Liberation Medal.

        Expert Pistol and Rifle Medals.

    16. Please list each book, article, column, or publication you have 
authored, individually or with others. Also list any speeches that you 
have given on topics relevant to the position for which you have been 
nominated. Do not attach copies of these publications unless otherwise 
instructed.
    No books, but numerous articles and speeches during my Naval Career 
primarily at Changes of Commands or official events, highlighting 
particular accomplishments, or the need for a strong Naval presence 
around the globe in order to influence events. While at ARI, as the 
spokesman for the HVACR manufacturing industry, articles and speeches 
were to highlight the good done by the industry and to advocate 
responsible manufacturing. As the president of its manufacturing trade 
association the central theme was to develop a positive identity for 
the industry.
    17. Please identify each instance in which you have testified 
orally or in writing before Congress in a governmental or non-
governmental capacity and specify the date and subject matter of each 
testimony.
    Written testimony as President of ARI before the House Committee on 
Ways and Means Subcommittee on Select Revenue Measures in September 
2006. Subject was legislation introduced by the Honorable Peter 
Hoekstra to modify the depreciation-holding period for commercial 
heating, ventilation, air-conditioning and refrigeration from 39 years 
to 20 years.
    18. Given the current mission, major programs, and major 
operational objectives of the department/agency to which you have been 
nominated, what in your background or employment experience do you 
believe affirmatively qualifies you for appointment to the position for 
which you have been nominated, and why do you wish to serve in that 
position?
    The operational command assignments afloat and government relations 
assignments ashore while in the Navy coupled with an engineering 
background provided a broad leadership, management and advocacy 
perspective. Over the last 5 years as president of a major U.S. 
manufacturing industry trade association, experience with standards 
development, product performance certification, regulatory activities, 
and globalization issues have provided a perspective into issues facing 
the manufacturing and services industries today.
    When asked to take on this challenge, I accepted because these 
perspectives may enable me to contribute as an advocate within the 
system for the competitiveness of the U.S. manufacturing and services 
industries. If confirmed, I look forward to working with this Committee 
and Congress on important issues related to manufacturing and services.
    19. What do you believe are your responsibilities, if confirmed, to 
ensure that the department/agency has proper management and accounting 
controls, and what experience do you have in managing a large 
organization?
    To set the example and ensure appropriate controls, and checks and 
balances are in place; and to ensure that they are maintained. My 
experiences in command at sea and ashore in the Navy, and as president 
of a major manufacturer's trade association have provided the 
appropriate background, experience and training to ensure our highly 
skilled and trained Manufacturing and Services workforce has the 
necessary tools and resources to accomplish their mission on behalf of 
American business and workers.
    20. What do you believe to be the top three challenges facing the 
department/agency, and why?
    U.S. manufacturing and services competitiveness. There are numerous 
challenges under that topic, but at the top would be:

        (1) reducing the structural costs facing U.S. manufacturers, 
        which put us at a disadvantage globally.

        (2) a real need to decrease overseas IPR violations, and

        (3) strengthening American industry's competitive position in 
        the global marketplace by increasing exports of U.S. goods and 
        services.
                   b. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers. Please include information related to retirement 
accounts.
    Receive retirement benefits as a 30-year retiree from the United 
States Navy.
    2. Do you have any commitments or agreements, formal or informal, 
to maintain employment, affiliation, or practice with any business, 
association or other organization during your appointment? If so, 
please explain.
    I will retain my position as Secretary of the Association, 
Education, and Business Institute, Inc. (AEBI), which is my wife's 
education consulting S-Corp. It is currently dormant.
    3. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.
    As noted in my ethics agreement, stock holdings of Ametek, Inc., 
Centerpoint Energy, IBM, JC Penney, Reliant Energy, Inc., Sunoco, and 
Volt Information Sciences could involve potential or perceived 
conflicts of interest.
    4. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated: None.
    5. Describe any activity during the past 10 years in which you have 
been engaged for the purpose of directly or indirectly influencing the 
passage, defeat, or modification of any legislation or affecting the 
administration and execution of law or public policy.
    Provided written testimony (see A. 17. above) for the ``Cool and 
Efficient Buildings Act,'' advocating changing the depreciation for 
commercial heating air-conditioning and refrigeration systems from 39 
to 20 years.
    6. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items.
    I have executed an ethics agreement in which I have agreed to 
divest my/my wife's stock holding in Ametek, Inc., Centerpoint Energy, 
IBM, JC Penny, Reliant Energy, Inc., Sunoco, and Volt Information 
Sciences, within 90 days of confirmation. Further, I have agreed that 
until divestitures are complete, I will not participate personally and 
substantially in any particular matter that will have a direct and 
predictable effect on the financial interests of these entities, unless 
I first obtain a written waiver or qualify for a regulatory exemption. 
Also, if confirmed, and if my wife begins to take on any new clients at 
AEBI, I will consult with a Department of Commerce ethics counsel to 
ensure propriety, and I will be non-participatory in AEBI businesses 
activities. Additionally, I have agreed to not participate personally 
and substantially in any particular matter involving specific parties 
of ARI or AASA, unless I am authorized to participate.
                            c. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics 
by, or been the subject of a complaint to any court, administrative 
agency, professional association, disciplinary committee, or other 
professional group? If so, please explain: No.
    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, State. or other law enforcement authority of any Federal, 
State. county, or municipal entity, other than for a minor traffic 
offense? If so, please explain.
    Charged with DUI in Middletown, Rhode Island in November 1989. 
Judge dismissed case.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in an administrative agency proceeding or 
civil litigation? If so, please explain: No.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, please explain: No.
    5. Have you ever been accused, formally or informally, of sexual 
harassment or discrimination on the basis of sex, race, religion, or 
any other basis? If so, please explain: No.
    6. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination: None.
                     d. relationship with committee
    1. Will you ensure that your department/agency complies with 
deadlines for information set by Congressional committees? Yes, to the 
best of my ability.
    2. Will you ensure that your department/agency does whatever it can 
to protect Congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Yes, to the best of my ability.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee? Yes, to 
the best of my ability.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.
                                 ______
                                 
                      resume of william g. sutton
Professional Profile
    Experienced Chief Executive with over 5 years leading and 
transforming a major manufacturing trade association into a forward-
looking and highly-involved organization fully-engaged in the 
regulatory policy debate and with an aggressive legislative and 
education agenda; and, over thirty years in leadership positions 
serving in the United States Navy both afloat and ashore, achieving the 
rank of Rear Admiral. Unique background includes seven CEO/COO-
equivalent assignments and substantial leadership expertise in change 
management, advocacy, international relations, education, marketing, 
standards development, and certification program management. Board 
experience includes the American National Standards Institute (ANSI), 
the National Association of Manufacturers (NAM), the Clifford H. Rees 
Scholarship Foundation, and North American Technician Excellence 
(NATE).
Employment History
    President, Air-Conditioning and Refrigeration Institute (ARI), 
October 2001 to February 2007.
    ARI is the trade association representing manufacturers of air-
conditioning and commercial refrigeration equipment in North America. 
With a $14.5M annual budget and a staff of 42, it is an internationally 
recognized leader in both the development of standards and in the 
administration of certification programs pertaining to the performance 
of air-conditioning, ventilation, and refrigeration products. ARI also 
serves as a major advocate for the heating, ventilation, air-
conditioning and refrigeration (HVACR) industry domestically and U.S. 
manufacturing competitiveness globally.
Advocacy

        Developed and implemented a coordinated advocacy and 
        communications effort that placed ARI in a position to advance 
        its members' agenda and lead in industry issues, replacing the 
        former reactionary approach.

        Brought all of the HVACR industry associations together into a 
        significant partnership effort and guided the industry forward 
        through legislative, regulatory, educational and technician 
        certification initiatives.

        Increased ARI's influence globally and successfully led a major 
        federation of international manufacturing associations through 
        activities such as intellectual property disputes and 
        international advocacy cooperation.

        Opened doors and established communications lines with historic 
        opponents, advancing the ARI agenda.

        Active in both the NAM and U.S. Chamber of Commerce in 
        manufacturing competitiveness issues.

        Provided leadership and was the primary spokesman in speeches, 
        articles and interviews for ARI and the HVACR industry both on 
        a routine basis and during several significant industry 
        initiatives and crises.
Services to Members

        Designed and completely restructured the member dues system to 
        be fair, simple and predictable.

        Grew by almost 40 percent and improved the processes and value 
        of the product performance certification programs.

        Led and coordinated the initial $1.4M fundraising effort which 
        established the Rees Scholarship Foundation.

        Increased member services and benefits through increased 
        efficiencies while growing ARI over 25 percent.

        Moved ARI from paper to web-based, and improved internal and 
        external communications.

        Successfully integrated the industry's technician certification 
        program into every activity and initiative.
Internal Management

        Quickly gained control of escalating expenses and managed the 
        budget to restore reserves.

        Developed and led highly successful and major branding, 
        marketing, and press relations efforts.

        Energized the budget and investment committee process and 
        engaged ARI in active portfolio management.

        Improved the governance process and procedures through board 
        and staff training programs.

        Instituted formal schedule and milestone planning, staff 
        feedback and recognition, and ethics, wellness and social 
        programs resulting in a professional and effective staff and a 
        healthy and positive work environment.

United States Navy Career

    Commander, Amphibious Group Two, February 1999 to July 2000.

        Headquartered in Norfolk, Virginia; responsibility to organize, 
        train, equip, and prepare Sailors to respond to national 
        tasking for the largest group command in the U.S. Navy: 38 ship 
        and shore commands, over 19 billion dollars in capital assets, 
        and 14,500 military and civilian personnel. Significant 
        interagency experience as task force commander for the EgyptAir 
        flight 990 crash recovery effort.

    Commander, Naval Base Pearl Harbor, Commander, Naval Surface Group 
Middle Pacific, September 1996 to January 1999.

        Regional Commander for all Navy activities statewide in Hawaii 
        and Group Commander with training, maintenance and operational 
        responsibility for all 17 surface ships homeported in Pearl 
        Harbor. Leadership, management, and agency and government 
        liaison responsibilities for all Navy personnel and facilities 
        in Hawaii and Antarctica.

    Chief of Staff, Commander Second Fleet and Commander Striking Fleet 
Atlantic, June 1994 to August 1996.

        Embarked in the flagship homeported in Norfolk, Virginia; 
        responsible for the direction of a staff of 160 men and women 
        planning, organizing, coordinating, and directing all surface 
        and air operations throughout the U.S. Atlantic Fleet and 
        within NATO's Atlantic operating area. Director of a major 
        joint services operational staff.

    Previous Assignments include:

        Naval Aide to President Reagan 1983-1985; Director of Programs, 
        Navy Office of Legislative Affairs 1990-1992; Commander, 
        Destroyer Squadron Two Four 1992-1994; Director, Prospective 
        Commanding Officer School: Member, Naval Academy Honor Review 
        Board; Instructor, Naval Engineering, U.S. Naval Academy; and 
        various assignments in destroyers, frigates, and surface 
        support ships.

Education

    Massachusetts Institute of Technology.

        Master of Science in Naval Architecture and Marine Engineering 
        (June 1971).

    United States Naval Academy.

        Bachelor of Science in Naval Engineering (June 1970).

Affiliations

        National Association of Manufacturers/Council of Manufacturing 
        Associations.

        U.S. Chamber of Commerce/Committee of 100.

        American National Standards Institute.

        American Society of Association Executives.

        Key Industry Associations Committee.

        Clifford H. Rees Scholarship Foundation.

        North American Technician Excellence.

        MIT Alumni Association.

        USNA Alumni Association.

        Military Officer's Association.

        Surface Navy Association.

        U.S. Naval institute.

        Naval Historical Foundation.
                                 ______
                                 
              naval career biography of william g. sutton
Rear Admiral, United States Navy, Retired
    Admiral Sutton hails from Brunswick, Georgia, and was commissioned 
upon graduation from the United States Naval Academy. He holds a Master 
of Science Degree in Naval Architecture and Marine Engineering from the 
Massachusetts Institute of Technology.
    At sea he served aboard USS JONAS INGRAM (DD 938) as ASW Officer, 
USS PAUL (FF 1080) as Weapons Officer, USS SURIBACHI (AE 21) as 
Operations Officer and Navigator, participating in deployments to the 
North Sea, Mediterranean Sea, and Middle East. He was the commissioning 
Executive Officer of USS KIDD (DDG 993), lead ship of her class, and 
was responsible for its initial outfitting, organization and the crew 
certification process. He commanded USS CALLAGHAN (DDG 994) which 
deployed to the Straits of Hormuz during the ``Tanker War.'' As 
Commander, Destroyer Squadron TWO FOUR, Admiral Sutton deployed to the 
Adriatic Sea during the Yugoslavian conflict, and twice deployed to the 
North Red Sea as Maritime Interception Force Commander, enforcing U.N. 
sanctions. He also served as Chief of Staff for Commander Second Fleet 
and Commander Striking Fleet; and was Director of the Maritime Forces 
Joint Staff, Commander, Joint Task Force 120 during Haitian and various 
Atlantic, Caribbean, and NATO contingency and planning operations.
    Ashore, Admiral Sutton served as Naval Aide to President Reagan 
1982-1985; Director of Programs, Navy Office of Legislative Affairs 
1990-1992; Director, Prospective Commanding Officer/Executive Officer 
Course at Surface Warfare Officers Schools Command in Newport, Rhode 
Island; and as an instructor in Naval Systems Engineering at the U.S. 
Naval Academy. He was Commander, Naval Base Pearl Harbor, Hawaii and 
Commander, Naval Surface Group Middle Pacific from September 1996 until 
January 1999, overseeing the major shore infrastructure changes 
resulting from the regionalization process. Admiral Sutton's last 
assignment was as Commander, Amphibious Group TWO from 5 February 1999 
until his transition to the retired list in July 2000. He was 
responsible for all Atlantic Fleet amphibious force readiness, 
maintenance, and training; and he participated in the LPD 17 ship class 
design process. Collaterally, he was Task Force Commander for recovery 
efforts following the crash of EgyptAir Flight 990 off the coast of 
Newport, Rhode Island in November 1999.

    The Chairman. I thank you very much, Admiral.
    Mr. Spoehel, I forgot to ask you to introduce your family. 
Please do.
    Mr. Spoehel. I thank you for that opportunity. They are 
actually on an extended vacation with family, out of the state, 
at the moment.
    The Chairman. You're a good husband.
    [Laughter.]
    Mr. Spoehel. Thank you.
    The Chairman. On behalf of the Committee, I'd like to thank 
all of the nominees. Your documents have been received. Your 
discussions have been heard. And they'll be all made part of 
the record.
    The Committee--and I speak for all of them--are very 
impressed with your background, your experiences, and your 
contributions to our Nation. We thank you for your service in 
the past, and we look forward to your service in the future. 
And we thank you for serving our country.
    To demonstrate our confidence in you, your nominations will 
be taken up by the Committee on Thursday. I can assure you it 
will be reported out, and, before we go on recess, you will be 
Secretaries.
    So, congratulations to all of you, and congratulations to 
the families. Thank you very much for your service.
    [Applause.]
    The Chairman. The Committee stands adjourned.
    [Whereupon, at 10:30 a.m., the hearing was adjourned.]
                            A P P E N D I X

    Prepared Statement of Hon. Ted Stevens, U.S. Senator from Alaska
    Thank you, Mr. Chairman, for holding today's hearing. These 
individuals have been selected to serve vital positions within our 
government and I thank them for their willingness to serve.
    I am very pleased to see Vice Admiral Barrett here today. He has 
been a tremendous asset to the country and has demonstrated a great 
understanding of Alaska, both as a member of the Coast Guard and in his 
capacity as Administrator of the Pipeline and Hazardous Materials 
Safety Administration.
    Before joining the Department of Transportation, Vice Admiral 
Barrett had a distinguished career in the United States Coast Guard and 
spent many years stationed throughout the gulf coast of Alaska. Most 
recently, he served as Commander of the Seventeenth Coast Guard 
District and had an impressive accident-free search and rescue program 
that saved 675 lives before going on to serve as Vice Commandant.
    In 2005, Vice Admiral Barrett was confirmed as the first Pipeline 
and Hazardous Materials Safety Administrator. He has worked tirelessly 
to improve the safety of our Nation's pipelines and was extremely 
helpful to this committee as we worked to craft the pipeline safety 
bill last Congress.
    This Committee has a close working relationship with Vice Admiral 
Barrett and I look forward to continuing that relationship. I 
congratulate him on his nomination.
                                 ______
                                 
             Prepared Statement of Hon. Olympia J. Snowe, 
                        U.S. Senator from Maine
    Thank you, Mr. Chairman. Today, I have want to reiterate my strong 
support for the nomination of Paul Brubaker as Administrator of the 
Research and Innovative Technology Administration (RITA) at the 
Department of Transportation.
    I have known Paul as an individual who is deeply committed to 
public service and the public good. Most especially, I'm familiar with 
Paul through his tenure with my former colleague--and former colleague 
to a number of us here--the esteemed Senator Bill Cohen. And, in fact, 
while working for Bill on the Senate Subcommittee on Oversight of 
Government Management, Paul was the principal staff architect of the 
Clinger-Cohen Act--which provided a critical modernization by requiring 
that the government information technology ``shop'' be operated exactly 
as an efficient and profitable business would operate.
    So while Paul may not be a native-born Mainer, given his tremendous 
contributions on Senator Cohen's staff, we've never held that against 
him! In fact we are very pleased to consider him an honorary Mainer!
    Paul has also served with distinction at the then-U.S. General 
Accounting Office, and served as Deputy Assistant Secretary and Deputy 
Chief Information Officer at the U.S. Department of Defense. But Paul 
brings to this critical leadership position at RITA a unique and 
impressive record not only in public service, but also in the private 
sector as well.
    His seasoned and accomplished background in both business and 
public service will undoubtedly serve Paul and the country well in this 
position, which requires him to administer and lead RITA, created to 
coordinate DOT's research and development investment with the objective 
of identifying and facilitating cross-modal solutions to America's 
transportation challenges. RITA enables DOT to more effectively manage 
its research portfolio and advance the development and implementation 
of innovative technologies.
    Paul is ideally positioned to assume this pivotal role and succeed 
at a high level as part of the overarching effort to advance an 
effective and safe transportation system for our Nation. He is poised 
to implement President Bush's goal of an American transportation system 
that ``. . . renews our commitment to increasing transportation safety 
and to keeping our transportation system on the leading edge of 
technology.''
    With that, I want to thank the Chairman and again urge my 
colleagues to support this exemplary candidate.
                                 ______
                                 
                Prepared Statement of Hon. John Warner, 
                       U.S. Senator from Virginia
    Chairman Inouye, Senator Stevens, and my other distinguished 
colleagues on the Senate's Commerce, Science, and Transportation 
Committee, I thank you for holding this confirmation hearing today.
    Today, I am pleased to speak on behalf of Ronald Spoehel of 
Virginia who has been nominated to serve as the Chief Financial Officer 
(CFO) of the National Aeronautics and Space Administration (NASA).
    The job of Chief Financial Officer is a critical one, tasked with 
the responsibility of overseeing NASA's overall financial well-being, 
including its annual budget of about $16.2 billion. Mr. Spoehel's 
strong financial background coupled with his extensive management 
experience makes him well tailored to serve in this position.
    Subsequent to earning his B.S. in Economics, M.S. in Engineering, 
and M.BA. from the University of Pennsylvania. Mr. Spoehel joined Bank 
of America where he quickly rose to the rank of Vice President. 
Including his tenure at Bank of America, Mr. Spoehel has over 25 years 
of experience and expertise as an officer or executive at diverse set 
of companies ranging from investment banking firms to global high-tech 
companies.
    Mr. Chairman, obviously, Mr. Spoehel is highly qualified to serve 
as Chief Financial Officer of the National Aeronautics and Space 
Administration. I look forward to the Committee's favorable 
consideration of his nomination.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Trent Lott to 
                           Ronald R. Spoehel
    Question 1. Three years ago NASA broke ground on its first ever 
Shared Services Center (NSSC) in Mississippi at the Stennis Space 
Center with the intent of reducing redundant and inefficient 
administrative functions. All reports indicate that the Center is 
fulfilling its mandate of saving money on projects to reduce costs by 
establishing uniform procedures and processes in these areas.
    The NASA Chief Financial Officer (CFO) is an important customer of 
that Center. In order to realize full efficiencies of the Center, it is 
important that the CFO work to maintain and advance the NSSC transition 
schedule in a timely and responsible manner. In fact, it has been 
reported that the Agency is on target to consolidate the important 
financial functions of accounts payable and accounts receivable to the 
NSSC by the beginning of calendar year 2008. Does the current timeline 
for the NSSC to consolidate accounts payable and accounts receivable 
remain the beginning of calendar year 2008?
    Answer. It is my understanding that the tentative schedule for 
transitioning accounts payable and accounts receivable remains at the 
beginning of calendar year 2008. If confirmed, I would review the 
schedule and plan of transition and work with my staff to help ensure 
the successful and timely transition of these key functions to the 
NSSC.

    Question 2. What additional mission projects as well as new 
capabilities can be assumed by the NSSC in an effort to advance its 
mission through centralizing its administrative processes and saving 
the agency valuable funds?
    Answer. It is my understanding that the NSSC is focusing on 
successfully transitioning the remainder of the services identified for 
transition through FY 2008, including simplified acquisitions and 
additional human resources activities. I have been informed that a 
review is underway of other activities identified in the NSSC 
Implementation Plan Report as requiring further study and that NASA is 
also considering other activities not delineated in the Implementation 
Plan Report for potential transition to the NSSC.

    Question 3. Are you committed to ensuring that NSSC remains at the 
forefront of assuming consolidated administrative functions for NASA?
    Answer: Yes, if I am confirmed, I would be committed to ensuring 
that the NSSC remains at the forefront of assuming additional 
consolidated administrative functions. From my prior private sector 
experience, I recognize the efficiency and cost effectiveness of the 
shared services model for delivering support services with 
appropriately designed processes and internal controls. Consequently, I 
view the NSSC model as a valid cross-cutting strategy for reducing 
administrative costs and enhancing operational efficiency while 
ensuring strong and effective internal controls are maintained.
                                 ______
                                 
Response to Written Questions Submitted by Hon. John D. Rockefeller IV 
                   to Vice Admiral Thomas J. Barrett
    Question 1. Can you please comment on how NHTSA chose its testing 
protocol for the occupant ejection rulemaking? Why does the agency 
believe that this is the best testing procedure to achieve the goal of 
reduced occupant ejection?
    Answer. As directed by SAFETEA-LU, NHTSA is currently developing a 
Notice of Proposed Rulemaking (NPRM) on occupant ejection. The Agency 
has been working on a test method that represents a human's upper body 
and the forces experienced during a rollover, but this method is still 
being finalized. I assure you that the Department and NHTSA will use a 
test methodology fully supported by crash data and sound science to 
provide effective occupant protection.

    Question 2. The SAFETEA-LU legislation requires the reduction in 
both full and partial ejections. Can you please comment on how NHTSA's 
performance standard will achieve this objective for all types of 
vehicle occupants?
    Answer. The Department is committed to fulfilling Congressional 
safety requirements established by SAFETEA-LU for both full and partial 
ejections. We are working hard to address full and partial ejections 
through new performance requirements that will be included in 
regulation. The specific details of how the Department proposes to 
fulfill these requirements are still under development and will be 
fully described in the Notice of Proposed Rulemaking.

    Question 3. What technologies would be required to meet this 
testing protocol?
    Answer. Side curtain and advanced glazing technologies are possible 
countermeasures that manufacturers could employ to meet the testing 
protocol.

    Question 4. Can you please comment on the cost effectiveness and 
availability of the technologies that will be needed to meet this 
testing protocol?
    Answer. The feasibility and cost effectiveness of achieving the 
proposed performance requirements is still being considered. They will 
be fully described in the Preliminary Regulatory Impact Analysis when 
the NPRM is published.

    Question 5. Are the technologies that would be required to meet 
this proposed testing protocol being used in vehicles today? Can you 
please comment on NHTSA's plans for phase-in of the regulation?
    Answer. Some of these technologies required to meet this testing 
protocol are beginning to appear in vehicles. While the exact details 
of NPRM are being finalized, phase-in of the performance requirements 
will be established in a way to ensure that benefits from these 
important life-saving technologies can be realized as rapidly as is 
practicable.

    Question 6. If these technologies are being made more available in 
cars today, would it seem reasonable to expect a rapid implementation 
requirement similar to the 3 year phase-in recently proposed for 
electronic stability control?
    Answer. While these technologies are beginning to appear in cars 
today, their ability to achieve the proposed performance requirements 
may not be comparable to electronic stability control systems at a 
similar stage relative to the regulatory process. If confirmed, you 
have my commitment that the proposed implementation schedule will be 
established to be quickly as is practicable.

    Question 7. Can you please comment on the timing of your rule 
development and if there are any potentially foreseeable obstacles that 
would prevent NHTSA's meeting the final rule deadline of October 1, 
2009?
    Answer. The Department is committed to fulfilling all of the safety 
requirements established by SAFETEA-LU. At this time does not foresee 
obstacles in meeting them. We expect to have a Notice of Proposed 
Rulemaking issued in 2008. If confirmed, I will work to ensure that 
deadlines for this and all SAFETEA-LU regulatory requirements are met.

                                  <all>

</pre></body></html>
